OFFICE OF INSPECTOR GENERAL



Audit of USAID’s Financial 

Statements for Fiscal Years 2007 

and 2006 

AUDIT REPORT NO. 0-000-08-001-C
November 14, 2007




WASHINGTON, DC
   Office of Inspector General

   November 14, 2007

   MEMORANDUM

   TO:                  David D. Ostermeyer, Chief Financial Officer

   FROM:                AIG/A, Joseph Farinella /s/

   SUBJECT:             Audit of USAID’s Financial Statements for Fiscal Years 2007 and 2006

   The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID’s Financial
   Statements for Fiscal Years 2007 and 2006. Pursuant to the Government Management Reform
   Act of 1994, USAID is required to prepare consolidated financial statements as of the end of the
   fiscal year. USAID is also required to submit a Performance and Accountability Report,
   including audited financial statements, to the Office of Management and Budget (OMB) and
   Department of Treasury by November 15, 2007. In accordance with fiscal year 2007
   requirements of OMB Circular A-136, USAID has elected to prepare an alternative Agency
   Financial Report that includes an Agency Head Message, Management’s Discussion and
   Analysis, and a Financial Section.

   The OIG has issued unqualified opinions on each of USAID’s principal financial statements for
   fiscal years 2007 and 2006.

   With respect to internal control, we did not identify any deficiencies that we consider to be
   material weaknesses. We did, however, identify certain deficiencies in internal control that we
   consider to be significant deficiencies. The significant deficiencies address USAID’s (1) controls
   over interagency reporting processes, (2) accounting for loans receivable, (3) reporting on
   foreign currency transactions, (4) reconciliations of its intragovernmental transactions, and (5)
   reconciliations of its Fund Balance with the U.S. Treasury.

   We noted no instances of substantial noncompliance with Federal financial management
   systems requirements, Federal accounting standards, or U.S. Standard General Ledger
   accounting at the transaction level as a result of our tests required by Section 803(a) of the
   Federal Financial Management Improvement Act of 1996.

   This report contains three recommendations to improve USAID’s internal control over financial
   reporting and the preparation of its annual financial statements.

   We appreciate the cooperation and courtesies that your staff extended to us during the audit.
   The OIG is looking forward to working with you on our audit of the fiscal year 2008 financial
   statements.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective................................................................................................................ 2 


Independent Auditor’s Report on USAID’s Financial Statements.............................. 3 


Report on Internal Control ............................................................................................. 4 


     Significant Deficiencies............................................................................................ 5 


     Controls over Interagency Reporting 

     Processes Need Improvement ................................................................................... 5 


     Accounting for Loans Receivable Needs 

     Improvement ............................................................................................................... 6 


     Reporting on Foreign Currency 

     Information Needs Improvement ................................................................................ 7 


     Intragovernmental Transactions 

     Remain Unreconciled.................................................................................................. 9 


     Reconciliations of Fund Balance with 

     Treasury Need Improvement .................................................................................... 10 


Report on Compliance with Laws and Regulations................................................... 12 


Evaluation of Management Comments ....................................................................... 14 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 18 


Appendix III – Status of Prior Year Findings and Recommendations...................... 21 

SUMMARY OF RESULTS

In our opinion, USAID’s consolidated balance sheets, consolidated statements of
changes in net position, consolidated statements of net cost, and combined statements
of budgetary resources present fairly, in all material respects, the financial position of
USAID as of September 30, 2007 and 2006; and its net cost, net position, and budgetary
resources for the years then ended, in conformity with generally accepted accounting
principles.

We did not identify any deficiencies in internal control that we considered to be material
weaknesses. Nonetheless, we did identify five deficiencies in internal control considered
to be significant deficiencies, related to USAID’s:

   •   Controls over interagency reporting processes
   •   Accounting for loans receivable
   •   Reporting on foreign currency information
   •   Intragovernmental reconciliations
   •   Reconciliations of Fund Balance with the U.S. Treasury

We noted no instances of substantial noncompliance with Federal financial management
systems requirements, Federal accounting standards, or U.S. Standard General Ledger
accounting at the transaction level as a result of our tests required by Section 803(a) of
the Federal Financial Management Improvement Act.




                                                                                        1

BACKGROUND 

USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad-
based sustainable development and providing humanitarian assistance. USAID has
missions in more than 90 countries, 46 of which have full accounting operations with
USAID controllers. For the fiscal year ended September 30, 2007, USAID reported total
budgetary resources of $15 billion.

Pursuant to the Government Management Reform Act of 1994, USAID is required to
submit audited financial statements to OMB annually. Pursuant to this Act, for fiscal
year 2007, USAID has prepared the following:

      Consolidated Balance Sheets
      Consolidated Statements of Changes in Net Position
      Consolidated Statements of Net Cost
      Combined Statements of Budgetary Resources
      Notes to the principal financial statements
      Other Required Supplementary Information
      Management’s Discussion and Analysis

AUDIT OBJECTIVE
Did USAID’s principal financial statements present fairly the assets, liabilities, net
position, net costs, changes in net position, and budgetary resources for fiscal
years 2007 and 2006?

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30, 2007 and 2006 and for the years then ended.

In accordance with Government Auditing Standards, the OIG has also issued reports
(dated November 14, 2007) on our consideration of USAID’s internal control over
financial reporting and on our tests of USAID’s compliance with certain provisions of
laws and regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.




                                                                                        2

Independent Auditor’s Report on
USAID’s Financial Statements
We have audited the accompanying consolidated balance sheets of USAID as of
September 30, 2007 and 2006, and the consolidated statements of changes in net
position, consolidated statements of net cost, and combined statements of budgetary
resources of USAID for the years ended September 30, 2007 and 2006.

We conducted our audits in accordance with auditing standards generally accepted in
the United States; Government Auditing Standards issued by the Comptroller General of
the United States; and OMB Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance that the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing
the accounting principles used and the significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, and in conformity with U.S. generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30, 2007 and 2006 and for the years then ended.

Management’s Discussion and Analysis and Required Supplementary Information
sections are not a required part of the consolidated financial statements, but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and,
accordingly, we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports,
dated November 14, 2007, on our consideration of USAID’s internal control over
financial reporting and on our tests of USAID’s compliance with certain provisions of
laws and regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.

/s/

USAID, Office of Inspector General
November 14, 2007




                                                                                        3

Report on Internal Control
We have audited the consolidated balance sheets of USAID as of September 30, 2007
and 2006. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2007 and 2006, and have issued our report
thereon dated November 14, 2007. We conducted the audits in accordance with
auditing standards generally accepted in the United States; Government Auditing
Standards issued by the Comptroller General of the United States; and OMB Bulletin No.
07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audits of USAID’s financial statements for the fiscal years
ended September 30, 2007 and 2006, we considered its internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing
our opinion on the financial statements, but not for the purpose of expressing an opinion
on the effectiveness of USAID’s internal control. We limited our system of internal
control testing to those controls necessary to achieve the objectives described in OMB
Bulletin 07-04. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA), such
as those controls relevant to ensuring efficient operations. Accordingly, we do not
express an opinion on USAID’s internal control.

Our consideration of internal control was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in internal control
that might be significant deficiencies or material weaknesses. However, as discussed
below, we identified certain deficiencies in internal control that we consider to be
significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
to prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies that adversely affects the entity’s ability
to initiate, authorize, or record, process, or report financial data reliably in accordance
with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control. We
consider the following deficiencies to be significant deficiencies in internal control:

   •   Controls over interagency reporting processes
   •   Accounting for loans receivable
   •   Reporting on foreign currency information
   •   Intragovernmental reconciliations
   •   Reconciliations of Fund Balance with the U.S. Treasury

A material weakness is a significant deficiency, or combination of significant deficiencies,
that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected by the entity’s internal control. We did not
identify any deficiencies in internal control that we consider to be material weaknesses,


                                                                                            4

as defined above.

With respect to internal control related to information included in the Management’s
Discussion and Analysis Section of USAID’s Agency Financial Report, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin 07-04, and determined whether
they were in operation. Our procedures were not designed to provide assurance on
internal control over this information and, accordingly, we do not provide an opinion on
such controls.

We also noted other matters involving the internal control over financial reporting which
we reported to USAID management in a separate letter dated November 14, 2007.



Significant Deficiencies
Controls over Interagency Reporting Need Improvement
USAID’s controls used to update its financial management system (Phoenix) with
accounting information provided by its child 1 agencies through interagency reporting
processes need improvement. In fiscal year 2007, USAID correctly entered annual
budgetary account activity for its child agencies in its general ledger, but did not always
readily confirm associated non-budgetary activity. This occurred, in one instance,
because although USAID confirmed the update of its general ledger with budgetary
information provided by its child agencies to the Department of Treasury, it did not
perform a similar confirmation for non-budgetary (or proprietary) accounts that are
included in its Balance Sheet and Statement of Net Cost. As a result, without
compensating controls, USAID’s Balance Sheet and Statement of Net Cost are
potentially in error to the extent of the unrecorded differences between budgetary and
proprietary information provided by its child agencies.

To account for annual child agency budgetary account activity in its general ledger,
USAID’s Office of the Chief Financial Officer (CFO) compared quarterly trial balance
information provided directly by its child agencies, with the same information that its child
agencies provide to the Department of Treasury through the Federal Agencies’
Consolidated Trial Balance System (FACTS II). For the end of fiscal year 2007, USAID
obtained FACTS II trial balances that were different than the trial balances originally sent
by one child agency, and relied completely on the FACTS II information. However,
because the FACTS II trial balance did not contain complete proprietary balance
information, USAID continued to rely on the original trial balance it received directly. The
OIG confirmed that no material differences existed between the separate sources.



1
  OMB Circular A-136 defines financial reporting requirements for transferring budget authority
from one Federal entity to another, and describes “child” agencies as those for which a Federal
entity receives budget authority from another Federal entity (the “parent”) and then obligates and
outlays sums up to the amount included in the allocation.




                                                                                                 5

USAID also had difficulty reporting interim financial statement information consistently
throughout 2007. Fiscal year 2007 beginning balance information provided to USAID by
one Federal child agency did not agree with the same information reported to Treasury.
Since accounting information reported to USAID for use in its financial statements is
obtained from the same source as the information provided to Treasury via FACTS II,
this information must agree, as required by OMB Circular A-136, section II.4.6.1. These
differences in fiscal year 2007 beginning balances reported throughout 2007 occurred
primarily because quarterly information provided by at least one child agency was not
consistent between periods.

To ensure that USAID continues to receive complete, consistent, updated trial balances
from its partner agencies, we are making the following recommendation:

  Recommendation No. 1: We recommend that USAID’s Office of the Chief Financial
  Officer develop agreements with its material Federal child agencies that address
  consistency between budgetary and proprietary accounting information provided to
  USAID.


Accounting for Loans Receivable Needs Improvement
Some USAID loans receivable activities recorded in Phoenix were not accurate or
complete. We identified Loans Receivable transactions that were not initially recorded in
Phoenix and certain credit subsidy entries that were recorded prior to the receipt of an
approved apportionment from OMB, causing differences between USAID’s Phoenix
accounting system and Midland Loan Services’ Enterprise Loan System. OMB Circular
A-11 requires Federal agencies to obtain an approved apportionment from OMB before
making modifications to direct loans. These activities occurred because of weaknesses
in the system interface between USAID and its loan service provider, and because of
inadequate coordination within the Office of the CFO. As a result, approximately $193
million of credit program receivables were not accurately processed prior to adjustment.

USAID works with Midland Loan Services of PNC Bank for its loan-servicing. Midland
processes USAID’s credit program transactions in its Enterprise loan system while
USAID maintains the interface between transactions posted monthly by Midland and
those entered in Phoenix. For each transaction, Midland converts Enterprise transaction
codes into Phoenix transaction codes for entry by USAID, based on a translation table
created by USAID. USAID cannot post transactions if Phoenix transaction codes are
incorrectly or inaccurately assigned to activities in Midland’s Enterprise loan system.

In auditing rescheduled loans (i.e. refinanced loans or loans whose terms and conditions
were modified between borrowers and the U.S. Government), the OIG
discovered approximately $193 million of credit program receivables processed by
Midland that were not recorded in Phoenix. This discrepancy occurred primarily
because certain transactions entered in Midland Bank’s Enterprise loan system did not
have a corresponding entry code in USAID’s translation table. Both Midland Loan
Services and USAID informed us that the translation table had not been updated for
missing codes, invalid codes, or new general ledger accounts since June 2005. As a
result, significant credit program activity remained unprocessed at USAID.




                                                                                       6

Although USAID performs monthly reconciliations of certain credit program accounts, its
staff identified unreconciled differences between rescheduled loan balances reported by
Midland and those observed in the Phoenix trial balance. USAID did not have
procedures in place to correct missing or inaccurate transactions identified by its staff.
Until USAID updates the translation table and implements procedures for reviewing
exceptions, loan transactions processed by Midland and transmitted via the monthly
interface file will not be completely or accurately recorded in USAID's accounting
system.

The OIG also determined that USAID’s Office of the CFO, Washington Financial
Services Division, had authorized Midland Loan Services to write off loans before
USAID’s receipt of an approved apportionment from OMB. If not detected promptly,
these loan subsidy entries in Phoenix may remain in the incorrect accounting period,
understating USAID’s Loans Receivables. USAID’s Office of the CFO needs to ensure
that its Washington Financial Services Division and its Central Accounting and Reporting
Division coordinate in the process of authorizing and recording activity related to loan
subsidies.

  Recommendation No. 2: We recommend that USAID’s Office of the Chief Financial
  Officer develop and implement a procedure to annually update and validate
  transaction codes used by its loan-servicing provider in USAID's transaction
  translation table.

  Recommendation No. 3: We recommend that USAID’s Office of the Chief Financial
  Officer develop and implement controls preventing the authorization of loan write-
  offs prior to its receipt of subsidy funds by the Department of Treasury and prior to
  the transfer of appropriations approved by the Office of Management and Budget.


Reporting on Foreign Currency Information Needs
Improvement (Repeat Finding)
USAID’s process for reporting on foreign currency assets and liabilities in its financial
statements needs improvement. Foreign Currency Trust Fund balances reported on
USAID’s Balance Sheet are a compilation of local bank balances reported by its
overseas missions. This bank information was used in lieu of transaction information in
Phoenix because USAID’s foreign currency information in Phoenix was generally
incomplete and sometimes inaccurate, and because USAID had not completed required
reconciliations. As a result, USAID was required to make manual financial reporting
adjustment to accurately report on its Foreign Currency Trust Funds, which represent
$288 million in assets and liabilities. As long as the information in Phoenix is incorrect,
USAID will continue to rely on external sources for foreign currency assets and liabilities.

USAID’s foreign currency balances represent cash held in local banks throughout the
world, managed by USAID on behalf of local governments. USAID records an asset and
a liability for the balances in these accounts and as of September 30, 2007, USAID’s
total Foreign Currency Trust Fund balance was $288 million.

The OIG observed that USAID continues to collect foreign currency balance information
from its overseas missions from sources outside of Phoenix. Because Phoenix foreign



                                                                                          7

currency information has been migrated from USAID’s previous financial management
system but not completely reconciled with bank records, many USAID missions maintain
separate records of the foreign currency accounts they manage locally, based on
account statements they receive from the local banks. As a result, USAID/Washington
accumulates mission bank statement balances for quarterly financial reporting in lieu of
foreign currency information in Phoenix. By using this information solely, USAID
missions cannot perform reconciliations against a separate independent source of
foreign currency information. To record quarterly fluctuations in foreign currency
balances, USAID makes a financial reporting adjustment to capture the net change in
the accumulated mission cash balances.

During fiscal year 2006, the OIG reported that USAID’s foreign currency information in
Phoenix was unreliable and recommended that USAID’s Office of the CFO perform
monthly bank reconciliations to maintain current financial information in its general
ledger. USAID continued to obtain quarterly bank balances from each mission and, for
financial statement purposes, adjusted its general ledger balance to agree with the bank
balances of the missions as of the end of each quarter. USAID and its information
systems contractor attempted to resolve the condition by comparing USAID’s general
ledger balances to the balances reported on the missions’ bank statements as of
October 1, 2006, and determined that foreign currency assets and liabilities reported at
the end of fiscal year 2006 were understated. USAID did not take any further action to
determine the reason for these differences, but increased related assets and liabilities in
the general ledger as a result. This activity remained in the general ledger but was
ultimately excluded for financial reporting purposes. As a result, no relationship exists
between the detailed foreign currency transaction information in Phoenix, and the
balances reported on USAID’s financial statements.

USAID’s Automated Directives System (ADS) 627.3.13, Local Currency Trust Fund
Verification, states that Mission Controllers must ensure accountability of trust funds
through the use of a biannual non-Federal Audit of the Missions’ trust fund accounts.
USAID did not perform a verification of local currency trust funds in 2007. Pursuant to a
prior recommendation, 2 the Office of the CFO has indicated that it will develop and
implement procedures to maintain current information on foreign currency trust funds in
its general ledger and will also assign a point of contact to monitor trust fund activities.
Beginning in the 2nd quarter of fiscal year 2008, the OIG will monitor USAID’s progress
on this effort, which is scheduled to be completed by December 31, 2007.




2
 Report on the Audit of USAID’s Financial Statements for Fiscal Years 2006 and 2005, p. 12,
November 15, 2006, http://www.usaid.gov/oig/public/fy07rpts/0-000-07-001-c.pdf



                                                                                              8

Intragovernmental Transactions Remain Unreconciled (Repeat
Finding)
The U.S. Treasury reported a $5.6 billion net difference in intragovernmental
transactions between USAID and other Federal agencies at the end of fiscal year 2007.
Of this amount, $1.4 billion represents differences requiring reconciliation in accordance
with OMB Circular A-136 and the Department of Treasury Financial Management
Service Federal Intragovernmental Transactions Accounting Policies Guide. The
differences between USAID’s records and those of its trading partners occurred because
USAID was not able to consistently resolve material differences identified by the
Department of Treasury in its quarterly Material Differences/Status of Disposition
Certification Report and other differences equal to or greater than $50 million. USAID
also did not consistently reconcile other significant differences by reciprocal category
with its Federal trading partners throughout fiscal year 2007. Until intragovernmental
transactions are reconciled, USAID’s financial statements are subject to error.

USAID has increased its efforts in resolving unreconciled amounts, but significant
differences still exist, including $1.4 billion required to be reconciled with three different
Federal agencies.         While some timing differences may ultimately be resolved,
differences caused by accounting errors or different accounting methodologies require a
special effort by USAID and its trading partners for timely resolution. The Federal
Intragovernmental Transactions Accounting Policies Guide suggests that agencies work
together to estimate accruals and to record corresponding entries in each set of records
so that they are in agreement and so that long-term accounting policy differences can be
identified. Until these differences are eliminated, USAID’s financial statements are
subject to error, to the extent of unreconciled intragovernmental activity.

Although $4.2 billion of the $5.6 billion of net differences reported between USAID and
the Treasury general fund are not required to be reconciled, Treasury does suggest that
Federal agencies confirm that these differences represent general fund activities.
USAID did not consistently document these confirmations.

We identified similar conditions related to USAID’s intragovernmental reconciliation
process in a previous audit report 3 and recognize that this process requires continuing
coordination with other Federal agencies. Therefore, we are not making a new
recommendation, but we will continue to monitor USAID’s progress in reducing
intragovernmental balances in future audits.




3
 Report on the Audit of USAID’s Financial Statements for Fiscal Years 2006 and 2005, p. 9,
November 15, 2006, http://www.usaid.gov/oig/public/fy07rpts/0-000-07-001-c.pdf



                                                                                             9

Reconciliations of Fund Balance with the U.S. Treasury Need
Improvement (Repeat Finding)
USAID had large unreconciled differences between its Fund Balance and its cash
balance reported by Treasury throughout 2007. As of September 30, 2007, these
differences totaled to a cumulative net value of $77 million. The differences remained
undocumented because USAID was not consistently investigating and resolving
reconciling items, and was not completing reconciliations of its Fund Balance in
accordance with Treasury Financial Manual (TFM) 2-5100. As a result, USAID recorded
adjustments at the end of fiscal year 2007—to ensure that its Fund Balance with the
U.S. Treasury reported on its Form 2108, Year End Closing Statement, agreed with the
balance in Treasury’s records—without fully documenting and investigating the reasons
for the differences.

U.S. Treasury reconciliation procedures state that an agency (1) may not arbitrarily
adjust its fund balance with the U.S. Treasury account, and (2) can adjust its fund
balance with the U.S. Treasury account balance only after clearly establishing the
causes for any errors and properly correcting those errors. Treasury’s guidance for
reconciling fund balances requires that Federal agencies research and resolve
differences reported by the U.S. Treasury on a monthly basis.

USAID CFO Bulletin 06-1001, Reconciliations with U.S. Treasury, requires USAID to
perform timely monthly reconciliations with the U.S. Treasury. The Bulletin also requires
a written justification for carrying forward unpaid and unsupported transactions more
than 90 days old, provides specific written guidance for write-offs, and requires a
certification that reconciliations have been performed in accordance with TFM Volume 1,
Part 2-5100. Bulletin 06-1001 has not been fully implemented.

Prior to adjustment, USAID reported its Fund Balance as $77 million more than the
balance reported by Treasury on its September 30, 2007 account statement. This
occurred because Treasury symbol changes in Phoenix were not routinely updated to
ensure that transactions were recorded against the correct appropriation, and because
$10.8 million of cash transactions remained in a suspense status at USAID pending
additional information. The transactions in suspense were fully processed at the
Department of Treasury as of the end of fiscal year 2007. USAID could not identify the
reasons for many other differences, including some items that have not been reconciled
since 2004. For financial reporting purposes, USAID adjusted its Fund Balance to match
the cash balance reported by Treasury without always fully documenting the reasons for
the unreconciled conditions.

USAID made some attempts to resolve unreconciled Treasury items, but did not always
document the efforts made to investigate and reconcile the differences. We also noted
this issue in a previous audit report 4 . Fund balance reconciliations with Treasury are
ongoing efforts and we will continue to monitor USAID’s progress with these
reconciliations in future audits.

4
 Report on the Audit of USAID’s Financial Statements for Fiscal Years 2006 and 2005, p. 8,
November 15, 2006, http://www.usaid.gov/oig/public/fy07rpts/0-000-07-001-c.pdf



                                                                                             10 

USAID management’s written response to the significant deficiencies identified in our
audit has not been subjected to the audit procedures applied in the audit of the financial
statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant
Administrator for Management, and Chief Financial Officer) and others within USAID, as
well as OMB and Congress, and is not intended to be and should not be used by anyone
other than these specified parties. This report is a matter of public record, however, and
its distribution is not limited.


/s/


USAID, Office of Inspector General
November 14, 2007




                                                                                       11 

Report on Compliance with
Laws and Regulations
We have audited the consolidated balance sheets of USAID as of September 30, 2007
and 2006. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2007 and 2006, and have issued our report
thereon. We conducted the audit in accordance with auditing standards generally
accepted in the United States, Government Auditing Standards, (issued by the
Comptroller General of the United States) and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements.

The management of USAID is responsible for complying with laws and regulations
applicable to USAID. As part of obtaining reasonable assurance about whether USAID’s
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations―noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and with certain other laws and regulations specified in OMB Bulletin 07-04,
including the requirements referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Our tests did not disclose instances of noncompliance, other than FFMIA, considered to
be reportable under Government Auditing Standards. Our objective was not to provide
an opinion on overall compliance with laws and regulations and, accordingly, we do not
express such an opinion.

OMB Circular A-123
OMB Circular A-123, Management’s Responsibility for Internal Control, implements the
requirements of FMFIA. Appendix A of OMB Circular A-123 contains an assessment
process that management should implement in order to properly assess and improve
internal controls over financial reporting. The assessment process should provide
management with the information needed to properly support a separate assertion on
the effectiveness of the internal controls over financial reporting, as a subset of the
overall FMFIA report.

In 2006, USAID elected to complete its assessment in accordance with OMB Circular A-
123, Appendix A, over the course of three years, and intends to complete this
assessment in 2008. Its 2007 process was implemented in substantial accordance with
the approved plan. USAID’s Statement of Assurance accurately reflects the results of
the assessment and includes an appropriate scope limitation.

Federal Financial Management Improvement Act of 1996
Under FFMIA, we are required to report on whether USAID’s financial management


                                                                                      12 

systems substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA section 803(a) requirements. We noted no instances of
substantial noncompliance with Federal financial management systems requirements,
Federal accounting standards, or U.S. Standard General Ledger accounting at the
transaction level. In our Report on Internal Control, we identified the following areas for
improvement over several financial system processes, not affecting substantial
compliance:

      •   Controls over interagency reporting processes
      •   Accounting for Loans Receivable
      •   Reporting on foreign currency information

This report is intended solely for the information and use of the management of USAID,
OMB, and Congress, and is not intended to be and should not be used by anyone other
than those specified parties. This report is a matter of public record, however, and its
distribution is not limited.


/s/

USAID, Office of Inspector General
November 14, 2007




                                                                                        13 

EVALUATION OF
MANAGEMENT COMMENTS
We have received USAID’s management comments to the findings and
recommendations included in our draft report.      We have evaluated USAID
management comments on the recommendations and have reached management
decisions on all of the recommendations. The following is a summary of USAID’s
management comments and our evaluation of those comments.

USAID management agreed to implement Recommendation No. 1 and will proceed
to elevate issues of noncompliance in instances where other federal agencies have not
provided USAID with correct and timely financial information. The target completion
date is March 31, 2008.

USAID management agreed to implement Recommendation No. 2 and will work to
ensure that an update and validation of transaction codes used by its loan service
provider will be completed in the USAID transaction table by the target completion date
of March 31, 2008.

USAID management has agreed to implement Recommendation No. 3 and will take
steps to ensure that USAID does not record loan subsidies prior to its receipt of
subsidy funds by the Department of Treasury and prior to the transfer of an
appropriation approved by OMB. The target completion date is March 31, 2008.




                                                                                      14 

                                                                                      APPENDIX I 

                                                                                      Page 1 of 3 




SCOPE AND METHODOLOGY 

USAID management is responsible for (1) preparing the financial statements in
accordance with generally accepted accounting principles, (2) establishing, maintaining
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are met, (3) ensuring that
USAID’s financial management systems substantially comply with FFMIA requirements,
and (4) complying with applicable laws and regulations.

The OIG is responsible for obtaining reasonable assurance about whether the financial
statements are presented fairly, in all material respects, in conformity with generally
accepted accounting principles. The OIG is also responsible for (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the
audit, (2) testing whether USAID’s financial management systems substantially comply
with FFMIA requirements, (3) testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements and laws for
which OMB audit guidance requires testing, and (4) performing limited procedures with
respect to certain other information appearing in the Agency Financial Report.

To fulfill these responsibilities, the OIG:

  •	 examined, on a test basis, evidence supporting the amounts and disclosures in
     the financial statements;
  •	 assessed the accounting principles used and significant estimates made by
     management;
  •	 evaluated the overall presentation of the financial statements;
  •	 obtained an understanding of internal control related to financial reporting
     (including safeguarding assets), compliance with laws and regulations (including
     execution of transactions in accordance with budget authority), and performance
     measures reported in Management’s Discussion and Analysis section of the
     Agency Financial Report;
  •	 tested relevant internal controls over financial reporting and compliance, and
     evaluated the design and operating effectiveness of internal controls;
  •	 considered the process for evaluating and reporting on internal control and
     financial management systems under FMFIA; and
  •	 tested USAID’s compliance with FMFIA requirements.

We also tested USAID’s compliance with selected provisions of the following laws and
regulations:

    	   Anti-Deficiency Act
    	   Improper Payments Information Act
    	   Prompt Payment Act
    	   Debt Collection Improvement Act
    	   Federal Credit Reform Act
    	   OMB Circular A-136
    	   OMB Circular A-123
    	   Foreign Assistance Act of 1961



                                                                                        15 

                                                                                    APPENDIX I
                                                                                    Page 2 of 3

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act, such as those controls relevant
to preparing statistical reports and ensuring efficient operations. We limited our internal
control testing to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may become inadequate
because of changes in conditions or that the degree of compliance with controls may
deteriorate. In addition, we caution that our internal control testing may not be sufficient
for other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the financial statements for the fiscal years
ended September 30, 2007 and 2006. We caution that noncompliance may occur and
not be detected by these tests and that such testing may not be sufficient for other
purposes.

In forming our opinion, the OIG considered potential aggregate errors exceeding $270
million for any individual statement to be material to the presentation of the overall
financial statements.

Federal Financial Management Improvement Act
We assessed whether USAID substantially complied with the Federal financial
management systems requirements under the Federal Financial Management
Improvement Act of 1996. OMB’s core financial systems requirements dated November
2001 were the required standard agencies were expected to meet in fiscal year 2007.

Because USAID’s core financial systems requirements substantially complied with
OMB’s November 2001 core financial systems requirements during fiscal year 2006, we
did not test whether requirements that were found to be in compliance last year
continued to be in compliance in 2007. However, we did review a listing of modifications
that were made to Phoenix during fiscal year 2007 to note any reductions or significant
changes in functionality. We also obtained a representation from USAID’s chief financial
officer that the financial system continued to operate with the same functionality during
2007 as it did during 2006.

In addition, we identified four feeder systems to the core financial systems and
documented key internal controls and information flows between core systems and
feeder systems. Those feeder systems included the U.S. Department of Agriculture’s
National Finance Center, the Department of Health and Human Services’ payment
management system, the Department of the Treasury’s CA$HLINK II system, and
USAID’s loan servicing system maintained by Midland Loan Services of PNC Bank. To
perform our fieldwork we interviewed USAID staff and contract personnel and reviewed
documentation related to the capabilities of Phoenix and feeder systems.
Documentation included reports, monthly reconciliations between the core financial
system and feeder systems, systems documentation, and documentation generated
between core systems and feeder systems.




                                                                                         16 

                                                                                 APPENDIX I
                                                                                 Page 3 of 3


Management’s Discussion and Analysis
With respect to the Management’s Discussion and Analysis, we gained an
understanding of USAID’s system of collecting and reporting on the information
presented, and performed limited tests to assess the controls established by USAID over
this information. We conducted a limited review of the internal controls related to the
existence and completeness assertions relevant to the performance information included
in the Management’s Discussion and Analysis.




                                                                                    17 

                                                                        APPENDIX II 

                                                                        Page 1 of 3 



 MANAGEMENT COMMENTS


                                                                November 14, 2007

 MEMORANDUM

 TO:                  AIG, Joseph Farinella

 FROM:                CFO, David Ostermeyer /s/

 SUBJECT: Management Response to Draft Independent Auditor’s Report on
          USAID’s Financial Statements for Fiscal Years 2007 and 2006
          (Report No. 0-000-08-001-C)

 Thank you for your draft audit report on the USAID FY 2007 and 2006 Financial 

 Statement and for the professionalism and dedication exhibited by your staff 

 throughout this entire process. 


 Fiscal year 2007 was another significant year for federal financial management at
 USAID. We are pleased that your draft report presents both our progress and our
 remaining challenges. We are gratified that the USAID Inspector General will
 issue unqualified opinions on all of USAID's four principal financial statements.
 The acknowledgments of the Agency’s improvements in financial systems and
 processes throughout the report are greatly appreciated.

 Following are our comments and management decisions regarding the findings and
 proposed audit recommendations:

 Significant Deficiency: Controls Over the Inter-Agency Reporting Process

 Recommendation 1: We recommend that USAID’s Office of the Chief Financial
 Officer develop agreements with its material child Federal agencies to ensure
 consistency between budgetary and proprietary accounting information provided to
 USAID.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov                                                                    18 

                                                                           APPENDIX II 

                                                                           Page 2 of 3 





Management Decision: We agree to implement the recommendation. In those
cases where other federal agencies whose financial activity is material to USAID’s
financial reporting and have not complied with the OMB requirement to provide
USAID with correct and timely financial information, USAID will elevate this
issue to appropriate levels of such agencies to encourage compliance. Target
completion date is March 31, 2008.

Significant Deficiency: Accounting for Loans Receivable

Recommendation 2: We recommend that USAID’s Office of the Chief Financial
Officer annually update and validate transaction codes used by its loan servicing
provider in USAID's transaction translation table.

Management Decision: We agree to implement the recommendation. We have
commenced reconciliation effort. Update and validation of transaction codes used
by the loan service provider will be completed in the USAID transaction table by
the target completion date of March 31, 2008.

Recommendation 3: We recommend that USAID’s Office of the Chief Financial
Officer develop and implement controls preventing the authorization of loan
cancellations prior to its receipt of subsidy funds by the Department of Treasury
and prior to the transfer of appropriations approved by the Office of Management
and Budget.

Management Decision: We agree to implement the Recommendation. Steps will
be taken to ensure that USAID does not record loan subsidies prior to its receipt of
subsidy funds by the Dept. of the Treasury and prior to the transfer of
Appropriation approved by OMB. Target completion date is March 31, 2008.

Significant Deficiency: Reporting on Foreign Currency Information (Repeat
Finding)

There are no recommendations associated with this Significant Deficiency.




                                                                                  19 

                                                                         APPENDIX II 

                                                                         Page 3 of 3 





Significant Deficiency: Reconciliations of Fund Balances with the U.S.
Treasury (Repeat Finding)

There are no recommendations associated with this Significant Deficiency. The
CFO implemented corrective actions related to two audit recommendations issued
under Fiscal Years 2006 and 2005 GMRA audit reports and will continue to
implement improvements in this area.

Significant Deficiency: Intragovernmental Reconciliations (Repeat Finding)

There are no recommendations associated with this Significant Deficiency. The
CFO implemented corrective actions related to two audit recommendations issued
under Fiscal Years 2004 and 2005 GMRA audit reports and will continue to
implement improvements in this area.

In closing, I would like to confirm USAID’s commitment to continual
improvement in financial management. I intend to ensure that all necessary steps
are taken to institutionalize strong financial management performance throughout
the Agency. We will continue the improvements made in the last few years as we
work further to develop and implement long-term solutions to address the issues
cited in your report. The completion of the implementation of our worldwide
financial management system, Phoenix, during FY 2006 has been the critical first
step in a strategy of consistent improvement of financial management resources at
USAID that will continue for years to come.




                                                                                20 

                                                                                APPENDIX III
                                                                                Page 1 of 4



STATUS OF PRIOR YEAR
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall
be made within a maximum of six months after a final report is issued. Corrective action
should proceed as rapidly as possible.

Status of 2006 Findings and Recommendations
Audit of USAID’s Financial Statements for Fiscal Years 2006 and 2005, Audit Report No.
0-000-07-001-C, November 15, 2006

  Recommendation No. 1.1: We recommend that USAID’s Office of the Chief
  Financial Officer prepare a quarterly reconciliation of its Phoenix Accruals System
  with the Phoenix general ledger, and document and resolve all differences.

Status: The Office of the Chief Financial Officer has developed a Business Objects
Enterprise report and determined that the accrual document script is functioning as
intended and producing an accurate quarterly Accrual Reconciliation Report. Final action
was completed on July 18, 2007.

  Recommendation No. 1.2: We recommend that USAID’s Office of the Chief
  Financial Officer update its Accruals training course to ensure that Cognizant
  Technical Officers can make reasonable accrual estimates when contract
  modifications result in changes to obligation levels.

Status: Contract Technical Officer training material has been updated, a mandatory web-
based course has been developed, standardized forms are available to compute the
accrual and an improved database better identifies training needs. Final action was
completed on September 28, 2007.

  Recommendation No. 2.1: We recommend that USAID’s Office of the Chief
  Financial Officer document monthly reconciliations of its Fund Balance with
  Treasury as required by TFM 2-5100, and ensure that overseas missions are
  performing and documenting monthly Fund Balance reconciliations.

Status: The Office of the CFO has reviewed and updated its Cash Reconciliation
procedures for consistency with Treasury guidance. Central Accounting and Reporting
and Mission Controllers are now required to certify to the Deputy CFO for Washington
Operations that Accounting Stations have completed and maintained file documentation
fully supporting monthly Treasury Account reconciliations for the twelve month period
ended June 30. As of July 31, 2007, all accounting stations have replied to the Office of
the CFO that they are performing and documenting monthly cash reconciliations. Final



                                                                                      21 

                                                                                 APPENDIX III
                                                                                 Page 2 of 4

action was completed on July 31, 2007.


  Recommendation No. 2.2: We recommend that USAID’s Office of the Chief 

  Financial Officer implement policies to ensure that all transactions recorded in the 

  general ledger are reported to Treasury on the SF 224 and that all differences and

  suspense items are investigated and resolved in a timely manner. 


Status: The Office of the CFO indicates that it needs additional resources to fully
implement this recommendation and is working to report all material transactions to
Treasury, as required. USAID will determine what changes need to be made to the
procedures on resolving Treasury SF 224 differences. The target completion date is
March 30, 2008.

  Recommendation No. 3: We recommend that USAID’s Office of the Chief Financial 

  Officer develop and implement monthly payment review procedures to identify

  transactions that have been posted in Phoenix to invalid appropriation Treasury 

  symbols. 


Status: The Office of the CFO has worked to determine the source of improper postings
and has implemented corrective actions. In addition, written procedures have been
drafted to ensure accuracy and consistency when updating the appropriation tables and
for biweekly verification of the data in the tables. The Office of the CFO has implemented
a new procedure for manually processing held interface transactions to eliminate
discrepancies in postings to the appropriations when grant payment and grant advance
document pairs are manually processed. Final action was completed on June 26, 2007.

  Recommendation No. 4: We recommend that USAID’s Office of the Chief Financial 

  Officer perform monthly reconciliations of local bank balances with the same

  information in Phoenix and record, in Phoenix, interest earned and gains or losses

  associated with foreign currency fluctuations for each of its foreign currency 

  accounts.


Status: The Office of the CFO is working with the missions to reconcile the Foreign
Currency Trust Fund data and record the data in Phoenix. The target date of completion
is December 31, 2007.

  Recommendation No. 5: We recommend that USAID require all bureaus and

  missions to certify that performance data submitted for publication are accurate, 

  adequately supported, and that the required data quality assessments have been

  performed.


Status: State Department teams are working to ensure that Operational Plans meet
USAID’s performance management and reporting needs as fully as possible. Guidance
was issued on August 24, 2007 which requires that a data quality assessment on all
performance data reported to Washington must be performed at least once every three
years. The guidance also requires that the Mission Directors, Assistant Secretary, or
Assistant Administrators endorse the validity of the performance data before it is
submitted. State Department teams are working with USAID offices to identify and
address other reporting needs that have not been met. Final action was completed on
August 31, 2007.


                                                                                       22 

                                                                                APPENDIX III
                                                                                Page 3 of 4
.

    Recommendation No 6: We recommend that the Office of the Chief Financial Officer
    (a) research Phoenix problems causing manual adjustments to the account closing
    and deobligation processes and implement a plan to resolve these deficiencies in FY
    2007 and (b) ensure that Phoenix properly records Recoveries of prior year
    obligations throughout the year.

Status: The Office of the CFO office has researched differences in Phoenix general
ledger accounts closing and corrected all known systemic closing processes. The
Phoenix 6.0.10.A upgrade has been installed and includes an enhancement to ensure
that all disbursements are posted to open/current accounting periods. Final action was
completed on July 31, 2007.

    Recommendation No. 7: We recommend that USAID’s Office of the Chief Financial 

    Officer direct each of USAID’s missions and offices in Washington to ensure that 

    obligations are not incurred prior to the commitment of funds and valid obligations 

    are recorded in Phoenix as required by Automated Directive System 634.3.5.2. 


Status: The Office of the CFO issued a policy reminder conveying the importance of
proper funds control, including the commitment of funds in Phoenix, before incurring any
obligations of USAID funds that ultimately will result in claims for payment. Final action
was completed on December 7, 2006.

Status of 2005 Findings and Recommendations
Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004, Audit Report No.
0-000-06-001-C, November 14, 2005

     Recommendation No. 2: We recommend that the Office of the Chief Financial
     Officer ensure that USAID financial managers and mission controllers implement
     the reconciliation guidelines specified by Chief Financial Officer Bulletin No. 06-
     1001, Reconciliation with U. S. Treasury, dated October 2005 to ensure Fund
     Balance with Treasury accounts are reconciled in a timely manner, reconciling
     items are investigated and resolved, and that adequate documentation is retained
     to support the reconciliation procedures performed.

Status: The Office of the CFO issued a policy reminder instructing all USAID Controllers
to perform and document monthly cash reconciliations as required by CFO Bulletin 06-
1001. Final action was completed on May 31, 2007.


Unresolved Prior Year Findings and Recommendations
Report on USAID’s Consolidated Financial Statements, Internal Controls and
Compliance for Fiscal Year 2002, Audit Report No. 0-000-03-001-C, January 24, 2003

     Recommendation No. 2: We recommend that the Chief Financial Officer:

     2.2 Reconcile the mission adjustment account in the general ledger to the



                                                                                       23 

                                                                           APPENDIX III 

                                                                           Page 4 of 4 


   cumulative amounts in the mission ledgers and resolve differences between the
   general ledger and the mission ledgers.

Status: This recommendation was superseded by the full rollout of Phoenix. Final
action was completed on May 25, 2007.




                                                                               24 

                                                                                                                          Appendix IV
                                                                                                                          Page 1 of 40




FINANCIAL STATEmENTS

                                                  u.S.Agency for International development
                                                  CoNSolIDATED BAlANCE SHEET
                                                     As of September 30, 2007 and 2006
                                                            (dollars in Thousands)

                                                                                                  2007             2006
 ASSETS:
 Intragovernmental:
         Fund balance with Treasury (Note 2)                                                 $ 19,131,357     $ 19,333,383
         Accounts receivable (Note 3)                                                                 220              220
         Other (Note 4)                                                                             4,532           24,874
    Total Intragovernmental                                                                      19,136,109       19,358,477


        Cash and Other monetary Assets (Note 5)                                                     288,079          327,598
        Accounts receivable, Net (Note 3)                                                           179,347           91,173
        Loans receivable, Net (Note 6)                                                            4,410,638        4,810,615
        Inventory and related Property, Net (Note 7)                                                 35,753           53,345
        General Property, Plant, and Equipment, Net (Notes 8 and 9)                                  88,498          103,994
        Advances and Prepayments (Note 4)                                                           501,531          405,898
    Total Assets (Note 20)                                                                   $ 24,639,955     $ 25,151,100


 lIABIlITIES (Note 16):
    Intragovernmental:
        Accounts Payable (Note 10)                                                           $       62,101   $       62,076
        debt (Note 11)                                                                              498,506          474,055
        due to u.S.Treasury (Note 11)                                                             4,045,375        4,491,077
        Other (Note 12)                                                                             216,005           42,651
    Total Intragovernmental                                                                       4,821,987        5,069,859


    Accounts Payable (Note 10)                                                                    2,367,957        2,267,721
    Loan Guarantee Liability (Note 6)                                                             1,823,332        1,660,909
    Federal Employee and Veteran’s benefits (Note 14)                                                22,282           23,438
    Other (Notes 12, 13, and 14)                                                                    398,622          428,788
    Total liabilities                                                                            9,434,180        9,450,715


    Commitments and Contingencies (Note 15)                                                           2,940            3,000


 NET PoSITIoN:
   unexpended Appropriations                                                                     14,787,230       14,334,819
   Cumulative results of Operations                                                                 415,605        1,362,566
    Total Net Position                                                                       $ 15,202,835     $ 15,697,385


 Total liabilities and Net Position (Note 20)                                                $ 24,639,955     $ 25,151,100

The accompanying notes are an integral part of these statements.




                                                                                                                                   25
                                                                                                      Appendix IV
                                                                                                      Page 2 of 40




                                          U.S.Agency for International Development
                                        CoNSolIDATED STATEmENT oF NET CoST
                                       For the Years Ended September 30, 2007 and 2006
                                                     (Dollars in Thousands)

 oBJECTIVES                                                                              2007               2006
 Peace and Security
    Gross Costs                                                                     $     460,211       $     567,836
    Less: Earned revenue                                                                    (1,146)             (5,208)
    Net Program Costs                                                                     459,065             562,628

 Governing Justly and Democratically
    Gross Costs                                                                          1,306,545           1,458,935
    Less: Earned revenue                                                                    (3,498)            (17,197)
    Net Program Costs                                                                    1,303,047           1,441,738

 Investing in People
    Gross Costs                                                                          3,513,749           3,718,162
    Less: Earned revenue                                                                 (484,068)           (146,009)
    Net Program Costs                                                                    3,029,681           3,572,153

 Economic Growth
    Gross Costs                                                                          3,103,511           3,915,462
    Less: Earned revenue                                                                 (102,616)             (32,515)
    Net Program Costs                                                                    3,000,895           3,882,947

 Humanitarian Assistance
    Gross Costs                                                                          1,389,641            844,792
    Less: Earned revenue                                                                    (3,587)             (5,956)
    Net Program Costs                                                                    1,386,054            838,836

 operating Unit management
    Gross Costs                                                                           117,362              56,028
    Less: Earned revenue                                                                     (210)                 (606)
    Net Program Costs                                                                     117,152              55,422
 Net Costs of operations (Notes 17 and 18)                                          $ 9,295,894          $ 10,353,724

The accompanying notes are an integral part of these statements.




                                                                                                               26
                                                                                                     Appendix IV
                                                                                                     Page 3 of 40




                                      U.S.Agency for International Development

                              CoNSolIDATED STATEmENT oF CHANGES IN NET PoSITIoN

                                   For the Years Ended September 30, 2007 and 2006

                                                 (Dollars in Thousands)


                                                                             2007               2006
                                                                         Consolidated      Consolidated
                                                                            Total             Total

 Cumulative Results of operations:
    beginning balances                                                   $    1,362,566    $      760,502
       Adjustments-Changes in Accounting Principles (Note 20)            $   (1,026,284)   $             –
    beginning balances, as Adjusted                                            336,282            760,502

 Budgetary Financing Sources:
       Appropriations used                                                    9,235,818         9,675,521
       donations and Forfeitures of Cash and Cash Equivalents                  117,541             71,962
       Transfers-in/out without reimbursement                                         –         1,189,017
 other Financing Sources (Non-Exchange):
       Imputed Financing                                                        21,858             19,288
    Total Financing Sources                                                   9,375,217        10,955,788
    Net Cost of Operations                                                   (9,295,894)       (10,353,724)
    Net Change                                                                  79,323            602,064

 Cumulative Results of operations:                                             415,605          1,362,566

 Unexpended Appropriations:
   beginning balance                                                         14,334,819        13,004,174
       Adjustments-Changes in Accounting Principles (Note 20)                  (896,460)                 –
    beginning balance, as Adjusted                                           13,438,359        13,004,174

 Budgetary Financing Sources:
       Appropriations received                                               10,853,865        10,238,890
       Appropriations Transferred in/out                                        (64,272)          845,076
       Other Adjustments                                                       (204,904)           (77,800)
       Appropriations used                                                   (9,235,818)        (9,675,521)
    Total budgetary Financing Sources                                         1,348,871         1,330,645
    Total unexpended Appropriations                                          14,787,230        14,334,819

 Net Position                                                            $ 15,202,835      $ 15,697,385


The accompanying notes are an integral part of these statements.




                                                                                                              27
                                                                                                  Appendix IV
                                                                                                  Page 4 of 40




                                       U.S.Agency for International Development

                                  ComBINED STATEmENT oF BUDGETARY RESoURCES

                                    For the Years Ended September 30, 2007 and 2006

                                                  (Dollars in Thousands)


                                                                       2007                         2006
                                                                              Non-                          Non-
                                                                            Budgetary                     Budgetary
                                                                             Credit                        Credit
                                                             Budgetary       Reform       Budgetary        Reform
Budgetary Resources:
   unobligated balance, brought Forward, October 1          $ 3,904,527     $ 1,422,605   $ 3,262,407    $ 1,024,789
   recoveries of Prior Year unpaid Obligations                  199,240              23       276,771              –
   budget Authority:
      Appropriations                                          10,920,445             –     10,321,277                   –
      borrowing Authority                                              –             –              –              52,026
      Spending Authority from Offsetting Collections:
          Earned:
              Collected                                         978,655         227,843       862,464           447,625
              Change in receivables from Federal Sources         (3,435)              –         3,620                 –
          Change in unfilled Customer Orders:
              Without Advance from Federal Sources               58,516              –          4,652                   –
      Subtotal                                                11,954,181        227,843    11,192,013           499,651
   Nonexpenditure Transfers, Net, Anticipated and Actual          78,398              –      (332,548)                –
   Permanently Not Available                                    (980,038)             –    (1,414,341)                –
Total Budgetary Resources                                    15,156,308       1,650,471   12,984,302        1,524,440

Status of Budgetary Resources:
   Obligations Incurred:
       direct                                                 11,523,609         68,154     9,001,401           101,835
       reimbursable                                              371,418              –        85,531                 –
          Subtotal                                            11,895,027         68,154     9,086,932           101,835
   unobligated balance:
      Apportioned                                              2,703,044          3,663     3,473,858                –
      Exempt from Apportionment                                        –              –             –                –
      Subtotal                                                 2,703,044          3,663     3,473,858                –
   unobligated balance Not Available                             558,237      1,578,654       423,512        1,422,605
Total Status of Budgetary Resources                          15,156,308       1,650,471   12,984,302        1,524,440

                                                                                                    (continued on next page)




                                                                                                              28
                                                                                                                           Appendix IV
                                                                                                                           Page 5 of 40




                                      U.S.Agency for International Development

                            ComBINED STATEmENT oF BUDGETARY RESoURCES (continued)

                                   For the Years Ended September 30, 2007 and 2006

                                                 (Dollars in Thousands)


                                                                                   2007                          2006
                                                                                          Non-                          Non-
                                                                                        Budgetary                     Budgetary
                                                                                         Credit                        Credit
                                                                         Budgetary       Reform        Budgetary       Reform

 Change in obligated Balance:
   Obligated balance, Net
      unpaid Obligations, brought Forward, October 1                      11,666,588          3,772     10,287,030          3,288
      Less: uncollected Customer Payments from
          Federal Sources, brought Forward, October 1                        (19,930)             –        (11,306)             –
        Total unpaid Obligated balance, Net                               11,646,658          3,772     10,275,724          3,288
    Obligations Incurred Net (+/-)                                        11,895,027         68,155      9,086,932        101,835
    Less: Gross Outlays                                                   (8,969,011)       (43,235)    (7,926,208)      (101,352)
    Less: recoveries of Prior Year unpaid Obligations,Actual                (199,239)           (23)      (276,771)             –
    Change in uncollected Customer Payments from Federal Sources (+/-)       (55,081)             –         (8,264)             –
    Obligated balance, Net, End of Period
        unpaid Obligations                                                14,393,364         28,669     11,170,983          3,772
        Less: uncollected Customer Payments from Federal Sources             (75,010)             –        (19,930)             –
        Total, unpaid Obligated balance, Net, End of Period               14,318,354         28,669     11,151,053          3,772

 Net outlays:
   Gross Outlays                                                           8,969,011         43,235      7,926,208        101,352
   Less: Offsetting receipts                                                (978,655)      (227,843)      (861,043)      (447,625)
   Less: distributed Offsetting receipts                                     (25,925)             –        (41,784)             –
 Net outlays                                                             $ 7,964,431    $ (184,608)    $ 7,023,381    $ (346,273)

The accompanying notes are an integral part of these statements.




                                                                                                                                     29
                                                                                                             Appendix IV
                                                                                                             Page 6 of 40




NOTES TO THE FINANCIAL
STATEmENTS
NoTE 1. SUmmARY oF SIGNIFICANT ACCoUNTING PolICIES

A. BASIS oF PRESENTATIoN                                         PRoGRAmS

                                                                 The statements present the financial activity of various
The accompanying principal financial statements
                                                                 programs and accounts managed by uSAId. The programs
(statements) report uSAId’s financial position and results
                                                                 include the Iraq relief and reconstruction Fund, Economic
of operations. They have been prepared using uSAId’s
                                                                 Support Fund, development Assistance, Assistance for the
books and records in accordance with Agency accounting
                                                                 New Independent States of the Former Soviet union,
policies, the most significant of which are summarized in
                                                                 Special Assistance Initiatives, International disaster
this note. The statements are presented in accordance
                                                                 Assistance, Child Survival and disease,Transition Initiatives,
with the guidance and requirements of the Office of
                                                                 and direct and Guaranteed Loan Programs.This classification
management and budget (Omb) Circular A-136, Financial
                                                                 is consistent with the budget of the united States.
Reporting Requirements.
                                                                 Iraq Relief and Reconstruction Fund
In accordance with Omb Circular A-136, changes have
been made to the 2007 accounting reporting procedures.           This fund supports necessary expenses related to providing
The 2007 statement of financing is presented as a footnote       humanitarian assistance in and around Iraq and to carrying
instead of a principal financial statement to comply with        out the purposes of the Foreign Assistance Act of 1961 for
new requirements. In addition, as specified by Note              rehabilitation and reconstruction in Iraq. These include costs
1 Section u, child transfer activities are to be included        of (1) water/sanitation infrastructure, (2) feeding and food
and parent transfer activities are to be excluded in trial       distribution, (3) supporting relief efforts related to refugees,
balances. This results in changes to 2006 ending balances        internally displaced persons, and vulnerable individuals,
which have been restated in Note 19 and 20.                      including assistance for families of innocent Iraqi civilians who
                                                                 suffer losses as a result of military operations; (4) electricity,
uSAId accounting policies follow generally accepted
                                                                 (5) healthcare, (6) telecommunications, (7) economic and
accounting principles for the Federal government, as
                                                                 financial policy, (8) education, (9) transportation, (10) rule
recommended by the Federal Accounting Standards
                                                                 of law and governance, (11) humanitarian de-mining, and
Advisory board (FASAb). The FASAb has been recognized
                                                                 (12) agriculture.
by the American Institute of Certified Public Accountants
(AICPA) as the official accounting standard set for              Economic Support Fund
the Federal government. These standards have been
agreed to, and published by the director of the Office           Programs funded through this account provide economic
of management and budget, the Secretary of the Treasury,         assistance to select countries in support of efforts to
and the Comptroller General.                                     promote stability and u.S. security interests in strategic
                                                                 regions of the world.

                                                                 Development Assistance
B. REPoRTING ENTITY
                                                                 This program provides economic resources to developing
Established in 1961 by President John F. Kennedy, uSAId is the   countries with the aim of bringing the benefits of
independent u.S.Government agency that provides economic         development to the poor. The program promotes broad-
development and humanitarian assistance to advance united        based, self-sustaining economic growth and supports
States economic and political interests overseas.                initiatives intended to stabilize population growth,


                                                                                                                       30
                                                                                                                    Appendix IV
                                                                                                                    Page 7 of 40




                                                                Transition Initiatives

                                                                This account funds humanitarian programs that provide
                                            united States
                                                                post-conflict assistance to victims of natural and man-made
has special expertise and which promise the greatest
                                                                disasters. until FY 2001, this type of assistance was funded
opportunity for the poor to better their lives.
                                                                under the International disaster Assistance account.
Assistance for the New Independent States
                                                                Direct and Guaranteed Loans:
of the Former Soviet Union
                                                                   Direct Loan Program
This account provides funds for a program of assistance
to the independent states that emerged from the former             These loans are authorized under Foreign Assistance
Soviet union. These funds support u.S. foreign policy goals        Acts, various predecessor agency programs, and other
of consolidating improved u.S. security; building a lasting        foreign assistance legislation. direct Loans are issued
partnership with the New Independent States;and providing          in both u.S. dollars and the currency of the borrower.
access to each other’s markets, resources, and expertise.          Foreign currency loans made “with maintenance of
                                                                   value” place the risk of currency devaluation on the
Special Assistance Initiatives
                                                                   borrower, and are recorded in equivalent u.S. dollars.
This program provides funds to support special assistance          Loans made “without maintenance of value” place the
activities. The majority of funding for this program was           risk of devaluation on the u.S. Government, and are
for democratic and economic restructuring in Central and           recorded in the foreign currency of the borrower.
Eastern European countries consistent with the objectives
                                                                   Urban and Environmental Program
of the Support for East European democracy (SEEd)
Act. All SEEd Act programs support one or more of the              The urban and Environmental (uE) program, formerly
following strategic objectives: promoting broad-based              the Housing Guarantee Program, extends guaranties to
economic growth with an emphasis on privatization, legal           u.S. private investors who make loans to developing
and regulatory reform and support for the emerging private         countries to assist them in formulating and executing
sector; encouraging democratic reforms; and improving              sound housing and community development policies
the quality of life including protecting the environment and       that meet the needs of lower income groups.
providing humanitarian assistance.
                                                                   Micro and Small Enterprise Development Program
International Disaster Assistance
                                                                   The micro and Small Enterprise development (mSEd)
Funds for the International disaster Assistance Program            Program supports private sector activities in developing
provide relief, rehabilitation, and reconstruction assistance      countries by providing direct loans and loan guarantees
to foreign countries struck by disasters such as famines,          to support local micro and small enterprises. Although
floods, hurricanes and earthquakes. The program also               the mSEd program is still active, the bulk of uSAId’s
provides assistance in disaster preparedness, and                  new loan guarantee activity is handled through the
prevention and mitigation.                                         development Credit Authority (dCA) program.

Child Survival and Disease                                         Israeli Loan guarantee Program

This program provides economic resources to developing             Congress enacted the Israeli Loan Guarantee Program
countries to support programs to improve infant and child          in Section 226 of the Foreign Assistance Act to support
nutrition,with the aim of reducing infant and child mortality      the costs for immigrants resettling to Israel from the
rates; to reduce HIV transmission and the impact of the            former Soviet union, Ethiopia, and other countries.
HIV/AIdS pandemic in developing countries; to reduce               under this program, the u.S. Government guaranteed
the threat of infectious diseases of major public health           the repayment of up to $10 billion in loans from
importance such as polio, and malaria; and to expand               commercial sources, to be borrowed in $2 billion
access to quality basic education for girls and women.             annual increments. borrowing was completed under




                                                                                                                               31
                                                                                                     Appendix IV
                                                                                                     Page 8 of 40




the program during Fiscal Year 1999,with approximately      FUND TYPES
$9.2 billion being guaranteed. Guarantees are made
                                                            The statements include the accounts of all funds under
by uSAId on behalf of the u.S. Government, with
                                                            uSAId’s control. most of the fund accounts relate to
funding responsibility and basic administrative functions
                                                            general fund appropriations. uSAId also has special fund,
guarantees for Israel, not to exceed $9 billion and
                                                            revolving fund, trust fund, deposit funds, capital investment
$1.3 billion in guarantees were resting with uSAId.
                                                            fund, receipt account, and budget clearing accounts.
In FY 2003, Congress authorized a second portfolio of
loan issued under this portfolio during FY 2003.            General fund appropriations and the Special fund are
                                                            used to record financial transactions under Congressional
Ukraine guarantee Program
                                                            appropriations or other authorization to spend general
The ukraine Export Credit Insurance Program was             revenue.
established with the support of the Export-Import bank
                                                            revolving funds are established by law to finance a
of the u.S. to assist ukrainian importers of American
                                                            continuing cycle of operations, with receipts derived from
goods. The program commenced operations in FY
                                                            such operations usually available in their entirety for use
1996 and expired in FY 1999. The ukraine Financing
                                                            by the fund without further action by Congress.
Account was closed out in FY 2002.
                                                            Trust funds are credited with receipts generated by the
Development Credit Authority
                                                            terms of the trust agreement or statute. At the point of
The first obligations for uSAId’s new development           collection, these receipts are unavailable, depending upon
Credit Authority (dCA) were made in FY 1999. dCA            statutory requirements, or available immediately.
allows missions and other offices to use loans and loan
                                                            The capital investment fund contains no year funds to
guarantees to achieve their development objectives
                                                            provide the Agency with greater flexibility to manage
when it can be shown that (1) the project generates
                                                            investments in technology systems and facility construction
enough revenue to cover the debt service including
                                                            that the annual appropriation for Operating Expenses
uSAId fees, (2) there is at least 50% risk-sharing with
                                                            does not allow.
a private-sector institution, and (3) the dCA guarantee
addresses a financial market failure in-country and does    deposit funds are established for (1) amount received
not “crowd-out” private sector lending. dCA can be          for which uSAId is acting as a fiscal agent or custodian,
used in any sector and by any uSAId operating unit          (2) unidentified remittances, (3) monies withheld
whose project meets the dCA criteria. dCA projects          from payments for goods or services received, and (4)
are approved by the Agency Credit review board and          monies held waiting distribution on the basis of legal
the Chief Financial Officer.                                determination.
Loan guarantees to Egypt Program

The Loan Guarantees to Egypt Program was established        C. BASIS oF ACCoUNTING
under the Emergency Wartime Supplemental Appro­
                                                            Transactions are recorded on both an accrual and
priations Act, 2003. under this program, the u.S.
                                                            budgetary basis. under the accrual basis, revenues are
Government was authorized to issue an amount not to
                                                            recognized when earned and expenses are recognized
exceed $2 billion in loan guarantees to Egypt during the
                                                            when a liability is incurred, without regard to receipt
period beginning march 1, 2003 and ending September
                                                            or payment of cash. budgetary accounting facilitates
30, 2005. New loan guarantees totaling $1.25 billion
                                                            compliance with legal constraints on, and controls of, the
were issued in fiscal year 2005 before the expiration
                                                            use of federal funds. The accompanying balance Sheet,
of the program.
                                                            Statement of Net Cost, and Statement of Changes in Net
                                                            Position have been prepared on an accrual basis. The
                                                            Statement of budgetary resources has been prepared in
                                                            accordance with budgetary accounting rules.




                                                                                                              32
                                                                                                                    Appendix IV
                                                                                                                    Page 9 of 40



D. BUDGETS AND BUDGETARY ACCoUNTING                            u.S. Treasury, proceeds from the sale of overseas real
                                                               property acquired by uSAId, and advances from foreign
The components of uSAId’s budgetary resources include          governments and international organizations.
current budgetary authority (that is, appropriations and
                                                               revenues are recognized as financing sources to the extent
borrowing authority) and unobligated balances remaining
                                                               that they were payable to uSAId from other agencies,
from multi-year and no-year budget authority received in
                                                               other governments and the public in exchange for goods
prior years. budget authority is the authorization provided
                                                               and services rendered to others. Imputed revenues are
by law to enter into financial obligations that result in
                                                               reported in the financial statements to offset the imputed
immediate or future outlays of federal funds. budgetary
                                                               costs.
resources also include reimbursement and other income
(that is, spending authority from offsetting collections
credited to an appropriation of fund account) and              F. FUND BAlANCE wITH U.S. TREASURY
adjustments (that is, recoveries of prior year obligations).
                                                               Cash receipts and disbursements are processed by the u.S.
unobligated balances associated with appropriations that
                                                               Treasury. The fund balances with Treasury are primarily
expire at the end of the fiscal year remain available for
                                                               appropriated funds that are available to pay current
obligation adjustments, but not new obligations, until
                                                               liabilities and finance authorized purchase commitments,
that account is canceled. When accounts are canceled
                                                               but they also include revolving, deposit, and trust funds.
five years after they expire, amounts are not available
for obligations or expenditure for any purpose and are
returned to Treasury.                                          G. FoREIGN CURRENCY
Pursuant to Section 511 of uSAId’s Appropriations Act
                                                               The direct Loan Program has foreign currency funds,
for certain purposes under the Foreign Assistance Act of
                                                               which are used to disburse loans in certain countries.
1961,as amended,funds shall remain available for obligation
                                                               Those balances are reported at the u.S. dollar equivalents
for an extended period if such funds are initially obligated
                                                               using the exchange rates prescribed by the u.S. Treasury.
within their initial period of availability.
                                                               A gain or loss on translation is recognized for the change
                                                               in valuation of foreign currencies at year-end. Additionally,
E. REVENUES AND oTHER FINANCING                                some uSAId host countries contribute funds for the
                                                               overhead operation of the host mission and the execution
SoURCES
                                                               of uSAId programs. These funds are held in trust and
uSAId receives the majority of its funding through             reported in u.S. dollar equivalents on the balance sheet
congressional appropriations --annual, multi-year, and no-     and statement of net costs.
year appropriations -- that may be used within statutory
limits. Appropriations are recognized as revenues at the
                                                               H. ACCoUNTS RECEIVABlE
time the related program or administrative expenses are
incurred.Appropriations expended for capitalized property
                                                               Accounts receivable consist of amounts due mainly from
and equipment are not recognized as expenses. In addition
                                                               foreign governments but also from other Federal agencies
to funds warranted directly to uSAId, the agency also
                                                               and private organizations. uSAId regards amounts due
receives allocation transfers from the u.S. department
                                                               from other Federal agencies as 100 percent collectible. The
of Agriculture (uSdA) Commodity Credit Corporation,
                                                               Agency establishes an allowance for uncollectible accounts
the Executive Office of the President, the department of       receivable for non-loan or revenue generating sources that
State, and millennium Challenge Corporation.                   have not been collected for a period of over one year.
Additional financing sources for uSAId’s various credit
programs and trust funds include amounts obtained
through collection of guaranty fees, interest income
on rescheduled loans, penalty interest on delinquent
balances, permanent indefinite borrowing authority from



                                                                                                                               33
                                                                                                        Appendix IV
                                                                                                       Page 10 of 40




I. loANS RECEIVABlE                                            J.ADVANCES AND PREPAYmENTS

Loans are accounted for as receivables after funds have        Funds disbursed in advance of incurred expenditures are
been disbursed. For loans obligated before October 1,          recorded as advances. most advances consist of funds
1991 (the pre-credit reform period),loan principal,interest,   disbursed under letters of credit to contractors and grantees.
and penalties receivable are reduced by an allowance for       The advances are liquidated and recorded as expenses upon
estimated uncollectible amounts. The allowance is              receipt of expenditure reports from the recipients.
estimated based on a net present value method prescribed
by Omb that takes into account country risk and projected
cash flows.                                                    K. INVENToRY AND RElATED PRoPERTY

For loans obligated on or after October 1, 1991, the loans     uSAId’s inventory and related property is comprised
receivable are reduced by an allowance equal to the net        of operating materials and supplies. Some operating
present value of the cost to the u.S. Government of            materials and supplies are held for use and consist mainly
making the loan. This cost, known as “subsidy”, takes into     of computer paper and other expendable office supplies
account all cash inflows and outflows associated with the      not in the hands of the user. uSAId also has materials and
loan, including the interest rate differential between the     supplies in reserve for foreign disaster assistance stored at
loans and Treasury borrowing, the estimated delinquencies      strategic sites around the world. These consist of tents,
and defaults net of recoveries, and offsets from fees and      vehicles, and water purification units. The Agency also has
other estimated cash flows. This allowance is re-estimated     birth control supplies stored at several sites.
when necessary and changes reflected in the operating
statement.                                                     uSAId’s office supplies are deemed items held for use
                                                               because they are tangible personal property to be
Loans have been made in both u.S. dollars and foreign          consumed in normal operations. Agency supplies held
currencies. Loans extended in foreign currencies can be        in reserve for future use are not readily available in the
with or without “maintenance of Value” (mOV). Those            market, or there is more than a remote chance that the
with mOV place the currency exchange risk upon the             supplies will be needed, but not in the normal course of
borrowing government; those without mOV place the risk         operations. Their valuation is based on cost and they are
on uSAId. Foreign currency exchange gain or loss is            not considered “held for sale.” uSAId has no supplies
recognized on those loans extended without mOV, and            categorizable as excess, obsolete, or unserviceable
reflected in the net credit programs receivable balance.       operating materials and supplies.

Credit program receivables also include origination and
annual fees on outstanding guarantees, interest on             l. PRoPERTY, PlANT AND EqUIPmENT
rescheduled loans and late charges. Claims receivables
(subrogated and rescheduled) are due from foreign              uSAId capitalizes all property,plant and equipment that have
governments as a result of defaults for pre-1992 guaranteed    an acquisition cost of $25 thousand or greater and a useful
loans. receivables are stated net of an allowance for          life of two years or more. Acquisitions that do not meet
uncollectible accounts,determined using an Omb approved        these criteria are recorded as operating expenses. Assets
net present value default methodology.                         are capitalized at historical cost and depreciated using the
                                                               straight-line method. real property is depreciated over 20
While estimates of uncollectible loans and interest are
                                                               years,nonexpendable personal property is depreciated over
made using methods prescribed by Omb, the final
                                                               3 to 5 years, and capital leases are depreciated according to
determination as to whether a loan is collectible is also
                                                               the terms of the lease. The Agency operates land, buildings,
affected by actions of other u.S. Government agencies.
                                                               and equipment that are provided by the General Services
                                                               Administration. rent for this property is expensed. Internal
                                                               use software that has development costs of $300,000 or
                                                               greater is capitalized. deferred maintenance amounts are
                                                               immaterial with respect to the financial statements.




                                                                                                                  34
                                                                                                                     Appendix IV
                                                                                                                    Page 11 of 40




m. lIABIlITIES                                                    o. ANNUAl, SICK,AND oTHER lEAVE

Liabilities represent the amount of monies or other               Annual leave is accrued as it is earned and the accrual
resources that are likely to be paid by uSAId as the result       is reduced as leave is taken. Each year, the balance in
of transactions or events that have already occurred.             the accrued annual leave account is adjusted to reflect
However, no liability can be paid by the Agency without an        current pay rates. To the extent that current or prior
appropriation or borrowing authority. Liabilities for which       year appropriations are not available to fund annual leave
an appropriation has not been enacted are therefore               earned but not taken, funding will be obtained from future
classified as liabilities not covered by budgetary resources      financing sources. Sick leave and other types of leave are
(unfunded liabilities), and there is no certainty that the        expensed as taken.
appropriations will be enacted. Also, these liabilities can be
abrogated by the u.S. Government, acting in its sovereign
capacity.                                                         P. RETIREmENT PlANS AND PoST
                                                                  EmPloYmENT BENEFITS

N. lIABIlITIES FoR loAN GUARANTEES                                uSAId recognizes its share of the cost of providing future
                                                                  pension benefits to eligible employees over the period
The Credit reform Act (CrA) of 1990, which became                 of time the employees provide the related services. The
effective on October 1, 1991, has significantly changed the       pension expense recognized in the financial statements
manner in which uSAId’s loan programs finance their               equals the current service cost for uSAId employees for
activities. The main purpose of CrA was to more                   the accounting period less the amount contributed by the
accurately measure the cost of Federal credit programs            employees. The measurement of the service cost requires
and to place the cost of such programs on a budgetary             the use of an actuarial cost method and assumptions.
basis equivalent to other Federal spending. Consequently,         Office of Personnel management (OPm) administers
commencing in fiscal 1992, uSAId cannot make new loans            these benefits and provides the factors that uSAId applies
or guarantees without an appropriation available to fund          to report the cost. The excess of the pension expense
the cost of making the loan or guarantee. This cost is            over the amount contributed by uSAId and employees
known as “subsidy.”                                               represents the amount being financed directly through the
                                                                  Civil Service retirement and disability Fund administered
For uSAId’s loan guarantee programs, when guarantee
                                                                  by OPm. This cost is considered imputed cost to uSAId.
commitments are made, an obligation for subsidy cost is
recorded in the program account. This cost is based on            uSAId recognizes a current-period expense for the future
the net present value of the estimated net cash outflows          cost of post retirement health benefits and life insurance
to be paid by the Program as a result of the loan guarantees,     for its employees while they are still working. uSAId
except for administrative costs, less the net present value       accounts for and reports this expense in its financial
of all cash inflows to be generated from those guarantees.        statements in a manner similar to that used for pensions,
When the loans are disbursed,the subsidy cost is disbursed        with the exception that employees and uSAId do not
from the program account to a financing account.                  make contributions to fund these future benefits.
For loan guarantees made before the CrA (pre-1992), the           Federal employee benefit costs paid by OPm and imputed
liability for loan guarantees represents an unfunded liability.   by uSAId are reported on the Statement of Net Cost.
Footnote 6 presents the unfunded amounts separate from
the post-1991 liabilities. The amount of unfunded liabilities
also represents a future funding requirement for uSAId.
The liability is calculated using a reserve methodology that
is similar to Omb prescribed method for post-1991 loan
guarantees.




                                                                                                                               35
                                                                                                          Appendix IV
                                                                                                         Page 12 of 40




q. CommITmENTS AND CoNTINGENCIES                                  T. AGENCY CoSTS

A contingency is an existing condition, situation or set of       uSAId costs of operations are comprised of program
circumstances involving uncertainty as to possible gain or        and operating expenses. uSAId/Washington program
loss to uSAId.The uncertainty will ultimately be resolved         expenses by objective are obtained directly from Phoenix,
when one or more future events occur or fail to occur.            the Agency general ledger. mission related program
For pending, threatened or potential litigation, a liability is   expenses by goal area are obtained from Phoenix. A cost
recognized when a past transaction or event has occurred,         allocation model is used to distribute operating expenses,
a future outflow or other sacrifice of resources is likely,       including management bureau, Global development
and the related future outflow or sacrifice of resources          Alliance,Trust Funds and Support Offices costs to specific
is measurable. For other litigations, a contingent liability      goals. Expenses related to Credit reform and revolving
is recognized when similar events occur except that the           Funds are directly applied to specific agency goals based
future outflow or other sacrifice of resources is more            on their objectives.
likely than not. Footnote 15 identifies commitments and
contingency liabilities.
                                                                  U. PARENT/CHIlD REPoRTING
R. NET PoSITIoN
                                                                  uSAId is a party to allocation transfers with other federal
                                                                  agencies as both a transferring (parent) entity and receiving
Net position is the residual difference between assets and
                                                                  (child) entity. Allocation transfers are legal delegations by
liabilities. It is composed of unexpended appropriations
                                                                  one department of its accounting system.ability to obligate
and cumulative results of operations.
                                                                  budget authority and outlay funds to another department.
   unexpended appropriations are the portion of the               A separate fund account (allocation account) is created in
   appropriations represented by undelivered orders and           the u.S.Treasury as a subset of the parent fund account for
   unobligated balances.                                          tracking and reporting purposes. All allocation transfers
                                                                  of balances are credited to this account, and subsequent
   Cumulative results of operations are also part of net          obligations and outlays incurred by the child entity are
   position. This account reflects the net difference
                                                                  charged to this allocation account as they execute the
   between (1) expenses and losses and (2) financing
                                                                  delegated activity on behalf of the parent entity. Generally,
   sources, including appropriations, revenues and gains,
                                                                  all financial activity related to these allocation transfers
   since the inception of the activity.
                                                                  (e.g. budget authority, obligations, outlays) is reported in
                                                                  the financial statements of the parent entity, from which
                                                                  the underlying legislative authority, appropriations, and
S. NoN-ENTITY ASSETS
                                                                  budget apportionments are derived. Exceptions to this
Non-entity fund balances are amounts in deposit Fund              general rule affecting uSAId include the Executive Office
accounts. These include such items as: funds received             of the President, for whom uSAId is the child in the
from outside sources where the government acts as fiscal          allocation transfer, but, per Omb guidance, will report all
agent, monies the government has withheld awaiting                activity relative to these allocation transfers in uSAId’s
distribution based on legal determination, and unidentified       financial statements. In addition to these funds, uSAId
remittances credited as suspense items outside the budget.        allocates funds as the parent to:
For uSAId, non-entity assets are minimal in amount as                department of Energy
reflected in Note 3, composed solely of accounts
receivables, net of allowances.                                      department of Justice
                                                                     department of Labor
                                                                     department of State
                                                                     department of the Treasury
                                                                     Nuclear regulatory Commission.


                                                                                                                    36
                                                                    Appendix IV
                                                                   Page 13 of 40




uSAId receives allocation transfers as the child from:

  department of State

  Executive Office of the President

  millennium Challenge Corporation

  united States department of Agriculture, Commodity 

  Credit Corporation.




NoTE 2. FUND BAlANCE wITH TREASURY

Fund balance with Treasury as of September 30, 2007 and
2006 consisted of the following:

                  Fund Balance with Treasury
                    (Dollars in Thousands)

Fund Balance                          2007             2006

Trust Funds                      $      40,421    $      52,050
revolving Funds                       3,018,774        2,400,715
Appropriated Funds                   16,024,157       16,879,748
Other Funds                             48,005              870
Total                            $ 19,131,357     $ 19,333,383


Status of Fund Balance
with Treasury                         2007             2006

unobligated balance
   Available                     $ 2,706,707      $ 3,462,340
   unavailable                        2,136,891        1,846,117
Obligated and Other balances         14,287,759       14,024,926
Not Yet disbursed (Net)
Total                            $ 19,131,357     $ 19,333,383


The Fund balances with Treasury are available to pay
accrued liabilities and finance authorized commitments
relative to goods, services, and benefits.

Obligated and Other balances Not Yet disbursed (Net)
include balances for non-budgetary funds and unfilled
customer orders without advances.

Note 20 describes the change in the FY 2007 Fund balance
with Treasury beinning balance as a result of a change in
the accounting principle.




                                                                             37
                                                                                                               Appendix IV
                                                                                                              Page 14 of 40




NoTE 3. ACCoUNTS RECEIVABlE, NET
The primary components of uSAId’s accounts receivable as of September 30, 2007 and 2006 are as follows:

                                                        Accounts Receivable, Net
                                                         (Dollars in Thousands)

                                                                     Receivable      Allowance      Receivable       Receivable
                                                                       Gross         Accounts        Net 2007         Net 2006
Intragovernmental
   Appropriation reimbursements from Federal Agencies                $       761           N/A       $       761      $        225
   Accounts receivable from Federal Agencies                             255,538           N/A           255,538           84,744
   Less Intra-Agency receivables                                         (256,079)         N/A           (256,079)         (84,749)
Total Intragovernmental                                                      220           N/A               220               220
Accounts receivable                                                      186,789         (7,442)         179,347           91,173
Total Receivables                                                    $   187,009     $   (7,442)     $   179,567      $    91,393



Entity intragovernmental accounts receivable consist of              findings, and any interest related to these types of
amounts due from other u.S. Government agencies. No                  receivables. A 100 percent allowance for uncollectible
allowance accounts have been established for the intra-              amounts is estimated for accounts receivable due from the
governmental accounts receivable, which are considered               public, which are more than one year past due. Accounts
to be 100 percent collectible.                                       receivable from missions are collected and recorded to
                                                                     the respective appropriation.
All other entity accounts receivable consist of amounts
managed by missions or uSAId/Washington. These                       Interest receivable is calculated separately, and there is no
receivables consist of non-program related receivables               interest included in the accounts receivable listed above.
such as overdue advances, unrecovered advances, audit




                                                                                                                          38
                                                                                                                        Appendix IV
                                                                                                                       Page 15 of 40




NoTE 4. oTHER ASSETS
Advances and Prepayments as of September 30, 2007 and 2006 consisted of the following:

                                                        Advances and Prepayments
                                                          (Dollars in Thousands)

                                                                                                     2007            2006
 Intragovernmental
     Advances to Federal Agencies                                                                $     4,532     $    24,874
 Total Intragovernmental                                                                               4,532          24,874
     Advances to Contractors/Grantees                                                                400,622         368,611
     Advances to Host Country Governments and Institutions                                            94,898          25,942
     Advances, Other                                                                                   6,011          11,345
 Total with the Public                                                                               501,531         405,898
 Total Other Assets                                                                              $   506,063     $   430,772



FY 2006 prepayment balance of $2.5 million is shown                  country organizations, such as educational institutions
as part of Advances, Other due to a change in reporting              and voluntary organizations. Advances, Other consist
requirements. Advances to Host Country Governments                   primarily of amounts advanced for living quarters, travel,
and Institutions represent amounts advanced by uSAId                 and home service.
missions to host country governments and other in-




NoTE 5. CASH AND oTHER moNETARY ASSETS
Cash and Other monetary Assets as of September 30, 2007 and 2006 are as follows:

                                                    Cash and other monetary Assets
                                                         (Dollars in Thousands)

 Cash and other monetary Assets                                                                      2007            2006
     Imprest Fund-Headquarters                                                                   $          4    $      350
     uE and micro and Small Enterprise Fund Cash w/Fiscal Agent                                             50              50
     Foreign Currencies                                                                              288,025         327,198
 Total Cash and Other monetary Assets                                                            $   288,079     $   327,598


uSAId has imprest funds in various overseas locations.               Foreign Currencies are related to Foreign Currency Trust
These funds are provided by the department of State                  Funds and this totaled to $288.0 million in FY 2007 and
overseas u.S. disbursing Officers to which uSAId is liable           $327.2 million in FY 2006. uSAId does not have any non­
for any shortages. uSAId’s cumulative balance of the                 entity cash or other monetary assets.
department of State provided imprest funds was $1.6 million
in FY 2007 and $1.8 million in FY 2006. These imprest funds
are not included in uSAId’s Consolidated balance Sheet.




                                                                                                                                  39
                                                                                                                   Appendix IV
                                                                                                                  Page 16 of 40




NoTE 6. DIRECT loAN AND loAN GUARANTEES AND loANS AND
lIABIlITIES FoR loAN GUARANTEES
uSAId operates the following loan and/or loan guarantee                  interest rates, interest supplements, estimated defaults,
programs:                                                                fees, and other cash flows) associated with direct loans and
                                                                         guarantees, is required by the Act to be recognized as an
   direct Loan Program (direct Loan)                                     expense in the year in which the direct loan or guarantee
   urban and Environmental Program (uE)                                  is disbursed. Subsidy cost is calculated by agency program
                                                                         offices prior to obligation using a model prescribed by the
   micro and Small Enterprise development Program                        Office of management and budget (Omb). Subsidy relating
   (mSEd)                                                                to existing loans and guarantees is generally required to be
                                                                         reestimated on an annual basis to adjust for changes in risk
   Israel Loan Guarantee Program (Israel Loan)
                                                                         and interest rate assumptions. direct loans are reported
   development Credit Authority Program (dCA)                            net of an allowance for this subsidy cost (allowance for
                                                                         subsidy).The subsidy costs associated with loan guarantees
   Egypt Loan Guarantee Program                                          are reported as loan guarantee liability.
direct loans resulting from obligations made prior to                    An analysis of loans receivable, loan guarantees, liability for
FY 1992 are reported net of allowance for estimated                      loan guarantees,and the nature and amounts of the subsidy
uncollectible loans. Estimated losses from defaults on loan              costs associated with the loans and loan guarantees are
guarantees resulting from obligations made prior to FY                   provided in the following sections.
1992 are reported as a liability.
                                                                         The following net loan receivable amounts are not the
The Credit reform Act of 1990 prescribes an alternative                  same as the proceeds that uSAId would expect to receive
method of accounting for direct loans and guarantees                     from selling its loans. Actual proceeds may be higher or
resulting from obligations made after FY 1991. Subsidy                   lower depending on the borrower and the status of the
cost, which is the net present value of the cash flows (i.e.             loan.


 Summary of loans Receivables, Net (Dollars in Thousands)                                                 2007              2006
 Net direct Loans Obligated Prior to 1992 (Allowance for Loss method)                                  $ 3,824,147       $ 4,183,220
 Net direct Loans Obligated After 1991 (Present Value method)                                              308,427          360,132
 defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss method)                           278,064          267,263
 Total Loans receivable, Net as reported on the balance Sheet                                          $ 4,410,638       $ 4,810,615




                                                                                                                             40
                                                                                                              Appendix IV
                                                                                                             Page 17 of 40




DIRECT loANS

                                                Direct loans

                                           (Dollars in Thousands)


                                                                                                  Value of Assets
                                                   loans                        Allowance           Related to
                                                 Receivables      Interest       for loan          Direct loans,
loan Programs                                      Gross         Receivable       losses               Net
Direct loans obligated Prior to 1992 (Allowance for loss method) as of September 30, 2007:
  direct Loans                                    $ 4,900,067    $   329,209    $ 1,405,129        $ 3,824,147
  mSEd                                                    29             32               61                  –
  Total                                           $ 4,900,096    $   329,241    $ 1,405,190        $ 3,824,147


Direct loans obligated Prior to 1992 (Allowance for loss method) as of September 30, 2006:
  direct Loans                                    $ 5,288,905    $   382,077    $ 1,487,761        $ 4,183,221
  mSEd                                                    31             36               67                  –
  Total                                           $ 5,288,936    $   382,113    $ 1,487,828        $ 4,183,221

Direct loans obligated After 1991 as of September 30, 2007:
  direct Loans                                    $ 1,045,654    $     4,330    $    741,374       $    308,610
  mSEd                                                   150             24              357               (183)
  Total                                           $ 1,045,804    $     4,354    $    741,731       $    308,427


Direct loans obligated After 1991 as of September 30, 2006:
  direct Loans                                    $ 1,089,114    $    16,501    $    745,777       $    359,838
  mSEd                                                   150            133              (10)               293
  Total                                           $ 1,089,264    $    16,634    $    745,767       $    360,131



                                   Total Amount of Direct loans Disbursed
                                           (Dollars in Thousands)

Direct loan Programs                                                                   2007               2006
  direct Loans                                                                      $ 5,945,721        $ 6,378,018
  mSEd                                                                                     179                181
  Total                                                                             $ 5,945,900        $ 6,378,199




                                                                                                                       41
                                                                                                                          Appendix IV
                                                                                                                         Page 18 of 40




                                        Schedule for Reconciling Subsidy Cost Allowance Balances
                                                        (Post-1991 Direct loans)
                                                         (Dollars in Thousandss)

                                                                              2007                                       2006
                                                               Direct                                     Direct
                                                               loan           mSED           Total        loan           mSED           Total
beginning balance, Changes, and Ending balance
beginning balance of the Subsidy Cost Allowance               $ 745,777       $      (10)   $ 745,767    $ 716,853      $     27    $ 716,880
Add: Subsidy Expense for direct Loans disbursed during
the reporting Years by Component:
     (A) Interest rate differential Costs                            –                 –             –           –              –               –
     (b) default Costs (Net of recoveries)                           –                 –             –           –              –               –
     (C) Fees and Other Collections                                  –                 –             –           –              –               –
     (d) Other Subsidy Costs                                         –                 –             –           –              –               –
Total of the Above Subsidy Expense Components                        –                 –             –           –              –               –
Adjustments:
     (A) Loan modifications                                   $ 16,132        $        –    $ 16,132     $ 21,688       $       –   $ 21,688
     (b) Fees received                                               –                 –             –           –              –               –
     (C) Foreclosed Property Acquired                                –                 –             –           –              –               –
     (d) Loans Written Off                                     (39,020)                –     (39,020)            –              –               –
     (E) Subsidy Allowance Amortization                         18,485              367       18,852          7,236          (37)        7,199
     (F) Other                                                       –                 –             –           –              –               –
Ending balance of the Subsidy Cost Allowance before           $ 741,374       $     357     $ 741,731    $ 745,777      $    (10)   $ 745,767
reestimates
Add or Subtract Subsidy reestimates by Component:
     (A) Interest rate reestimate                                    –                 –             –           –              –               –
     (b) Technical/default reestimate                                –                 –             –           –              –               –
Total of the Above reestimate Components                             –                 –             –           –              –               –
Ending balance of the Subsidy Cost Allowance                  $ 741,374       $     357     $ 741,731    $ 745,777      $    (10)   $ 745,767



                                                      Defaulted Guaranteed loans
                                                         (Dollars in Thousands)

                                                  Defaulted                                                              Value of Assets
                                                 Guaranteed                                      Allowance            Related to Defaulted
                                               loans Receivable,           Interest              For loan              Guaranteed loans
loan Guarantee Programs                             Gross                 Receivable              losses                Receivable, Net
Defaulted Guaranteed loans from Pre-1992 Guarantees (Allowance for loss method): 2007
uE                                                $ 387,894               $       59,143          $ 168,973                 $ 278,064
Total                                             $ 387,894               $       59,143          $ 168,973                 $ 278,064


Defaulted Guaranteed loans from Pre-1992 Guarantees (Allowance for loss method): 2006
uE                                                $ 385,728               $       61,980          $ 180,445                 $ 267,263
Total                                             $ 385,728               $       61,980          $ 180,445                 $ 267,263




                                                                                                                                    42
                                                                                                             Appendix IV
                                                                                                            Page 19 of 40




DEFAUlTED GUARANTEED loANS FRom PoST-1991 GUARANTEES

In FY 2007, the uE Program experienced $3.6 million in defaults on payments.

In FY 2006, the uE Program experienced $3.2 million in defaults on payments.

GUARANTEED loANS oUTSTANDING:

                                         Guaranteed loans outstanding
                                            (Dollars in Thousands)

                                                                          outstanding           Amount of
                                                                            Principal,          outstanding
                                                                        Guaranteed loans,        Principal
loan Guarantee Programs                                                    Face Value           Guaranteed
Guaranteed loans outstanding (2007):
uE                                                                             $ 1,330,189      $ 1,330,189
mSEd                                                                                  17,010             8,505
Israel                                                                             12,700,332       12,700,332
dCA                                                                                 1,282,332         498,517
Egypt                                                                               1,250,000        1,250,000
Total                                                                          $ 16,579,863     $ 15,787,543


Guaranteed loans outstanding (2006):
uE                                                                             $ 1,510,359      $ 1,510,359
mSEd                                                                                  17,010            8,505
Israel                                                                             12,869,563       12,869,563
dCA                                                                                  870,636          400,940
Egypt                                                                               1,250,000        1,250,000
Total                                                                          $ 16,517,568     $ 16,039,367


New Guaranteed loans Disbursed (2007):
uE                                                                             $           –    $           –
mSEd                                                                                       –                –
dCA                                                                                  129,455           51,782
Israel                                                                                     –                –
Egypt                                                                                      –                –
Total                                                                          $     129,455    $      51,782


New Guaranteed loans Disbursed (2006):
uE                                                                             $           –    $           –
mSEd                                                                                       –                –
dCA                                                                                  148,025           51,550
Israel                                                                                     –                –
Egypt                                                                                      –                –
Total                                                                          $     148,025    $      51,550




                                                                                                                      43
                                                                                                             Appendix IV
                                                                                                            Page 20 of 40




                                          liability for loan Guarantees
                                             (Dollars in Thousands)

                                                          liabilities for          liabilities for
                                                       losses on Pre-1992        loan Guarantees                  Total
                                                           Guarantees,             for Post-1991                liabilities
                                                        Estimated Future            Guarantees,                 for loan
           loan Guarantee Programs                       Default Claims           Present Value                Guarantees
liability for loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2007:
uE                                                         $       124,794             $    138,203             $    262,997
mSEd                                                                    –                     (3,884)                   (3,884)
Israel                                                                  –                  1,386,173                1,386,173
dCA                                                                     –                    14,617                     14,617
Egypt                                                                   –                   163,429                  163,429
Total                                                      $       124,794             $ 1,698,538              $ 1,823,332

liability for loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2006:
uE                                                         $       157,266             $    155,429             $    312,695
mSEd                                                                    –                     (2,152)                   (2,152)
Israel                                                                  –                  1,169,363                1,169,363
dCA                                                                     –                    10,812                     10,812
Egypt                                                                   –                   170,191                  170,191
Total                                                      $       157,266             $ 1,503,643              $ 1,660,909



SUBSIDY ExPENSE FoR loAN GUARANTEES BY PRoGRAm AND ComPoNENT:

                      Subsidy Expense for loan Guarantees by Program and Component
                                           (Dollars in Thousands)

                                                                          Fees and
                                  Interest                                 other
 loan Guarantee Programs        Supplements        Defaults              Collections                other               Total
Subsidy Expense for New loan Guarantees (2007):
dCA                               $      –         $     6,935               $   –              $       –           $      6,935
mSEd                                     –                     –                 –                      –                         –
Total                             $      –         $     6,935               $   –              $       –           $      6,935


Subsidy Expense for New loan Guarantees (2006):
dCA                               $      –         $     5,336               $   –              $       –           $      5,336
mSEd                                     –                 86                    –                      –                        86
Total                             $      –         $     5,422               $   –              $       –           $      5,422




                                                                                                                         44
                                                                                                           Appendix IV
                                                                                                          Page 21 of 40




               Subsidy Expense for loan Guarantees by Program and Component (continued)
                                         (Dollars in Thousands)

                                                    Total         Interest Rate     Technical         Total
loan Guarantee Programs                          modifications     Reestimates     Reestimates     Reestimates
modifications and Reestimates (2007):
  uE                                               $        –       $        –      $          –    $           –
  mSEd                                                      –                –             1,408           1,408
  dCA                                                       –                –                 –                –
  Israel                                                    –                –             9,035           9,035
  Egypt                                                     –                –                 –                –
  Total                                            $        –       $        –      $     10,443    $     10,443

modifications and Reestimates (2006):
  uE                                               $        –       $        –      $          –    $           –
  mSEd                                                      –                –                 –                –
  dCA                                                       –                –                 –                –
  Israel                                                    –                –            34,372          34,372
  Egypt                                                     –                –            14,264          14,264
  Total                                            $        –       $        –      $     48,636    $     48,636



                                   Total loan Guarantee Subsidy Expense
                                           (Dollars in Thousands)

loan Guarantee Programs                                                                 2007            2006
   dCA                                                                              $     6,935     $     5,336
   uE                                                                                          –                –
   mSEd                                                                                   1,408             86
   Israel                                                                                 9,035          34,372
   Egypt                                                                                       –         14,264
   Total                                                                            $    17,378     $    54,058




SUBSIDY RATES FoR loAN GUARANTEES BY PRoGRAm AND ComPoNENT:

                  Budget Subsidy Rates for loan Guarantees for the Current Year’s Cohorts
                                                 (Percent)

                                  Interest                         Fees and
                                Supplements                          other
loan Guarantee Programs             (%)         Defaults (%)     Collections (%)    other (%)       Total (%)
  dCA                                   –           2.08%               –                 –             2.08%




                                                                                                                    45
                                                                                                                              Appendix IV
                                                                                                                             Page 22 of 40


                                     Schedule for Reconciling loan Guarantee liability Balances
                                                      (Dollars in Thousands)

            (Post-1991 loan Guarantees)                            DCA           mSED            UE            Israel        Egypt          Total
                                                                      2007
beginning balance, Changes, and Ending balance
beginning balance of the Loan Guarantee Liability              $ 10,812      $    (2,152)   $ 155,428      $1,169,364    $ 170,191      $1,503,643
Add: Subsidy Expense for Guaranteed Loans disbursed during the
    reporting Years by Component:
    (A) Interest Supplement Costs                                     –               –               –             –              –              –
    (b) default Costs (Net of recoveries)                             –               –               –             –              –              –
    (C) Fees and Other Collections                                    –               –               –             –              –              –
    (d) Other Subsidy Costs                                       6,935               –               –             –              –          6,935
Total of the Above Subsidy Expense Components                  $    6,935    $        –     $         –    $        –    $         –    $     6,935
Adjustments:
    (A) Loan Guarantee modifications                                    –              –             –               –            –                –
    (b) Fees received                                               1,043             45         2,069               –            –           3,157
    (C) Interest Supplements Paid                                       –              –             –               –            –               –
    (d) Foreclosed Property and Loans Acquired                          –              –             –               –            –               –
    (E) Claim Payments to Lenders                                  (1,442)          (420)       (3,590)              –            –          (5,452)
    (F) Interest Accumulation on the Liability balance              3,088            460         6,116          73,504        7,301          90,469
    (G) Other                                                      (5,819)        (3,740)       13,901               –            –           4,342
Ending balance of the Loan Guarantee Liability before reestimates $ 14,617   $    (5,807)   $ 173,924      $1,242,868    $ 177,492      $1,603,094
Add or Subtract Subsidy reestimates by Component:
   (A) Interest rate reestimate                                          –            –               –              –             –              –
   (b) Technical/default reestimate                                      –        1,923         (35,722)       143,305       (14,062)        95,444
Total of the Above reestimate Components                       $      –      $     1,923    $ (35,722)     $ 143,305     $ (14,062)     $ 95,444
Ending balance of the Loan Guarantee Liability                 $ 14,617      $    (3,884)   $ 138,202      $1,386,173    $ 163,430      $1,698,538


                                                                      2006
beginning balance, Changes, and Ending balance
beginning balance of the Loan Guarantee Liability              $    4,610    $    (1,811)   $ 149,557      $1,066,734    $ 148,051      $1,367,141
Add: Subsidy Expense for Guaranteed Loans disbursed during the
    reporting Years by Component:
    (A) Interest Supplement Costs                                       –             –               –             –              –              –
    (b) default Costs (Net of recoveries)                               –             –               –             –              –              –
    (C) Fees and Other Collections                                      –             –               –             –              –              –
    (d) Other Subsidy Costs                                         5,336            86               –             –              –          5,422
Total of the Above Subsidy Expense Components                  $    5,336    $       86     $         –    $        –    $         –    $     5,422
Adjustments:
    (A) Loan Guarantee modifications                                    –             –              –              –              –              –
    (b) Fees received                                                 847            55          2,334              –              –          3,236
    (C) Interest Supplements Paid                                       –             –              –              –              –              –
    (d) Foreclosed Property and Loans Acquired                          –             –              –              –              –              –
    (E) Claim Payments to Lenders                                    (168)         (475)        (3,254)                                      (3,897)
    (F) Interest Accumulation on the Liability balance                879             –          8,784          48,272        6,625          64,560
    (G) Other                                                        (692)           (7)        18,604               –            –          17,905
Ending balance of the Loan Guarantee Liability before reestimates $ 10,812   $    (2,152)   $ 176,025      $1,115,006    $ 154,676      $1,454,367
Add or Subtract Subsidy reestimates by Component:
   (A) Interest rate reestimate                                          –            –               –              –            –               –
   (b) Technical/default reestimate                                      –            –         (20,597)        54,358       15,515          49,276
Total of the Above reestimate Components                       $      –      $         –    $ (20,597)     $ 54,358      $ 15,515       $ 49,276
Ending balance of the Loan Guarantee Liability                 $ 10,812      $    (2,152)   $ 155,428      $1,169,364    $ 170,191      $1,503,643


                                                                                                                                        46
                                                                                                                    Appendix IV
                                                                                                                   Page 23 of 40



                                                    Administrative Expense
                                                    (Dollars in Thousands)

 loan Programs                                                                                  2007             2006
    dCA                                                                                     $   12,244       $   13,215
    Total                                                                                   $   12,244       $   13,215

oTHER INFoRmATIoN

1. Allowance for Loss for Liquidating account (pre-Credit reform Act) receivables have been calculated in accordance
   with Omb guidance using a present value method which assigns risk ratings to receivables based upon the country of
   debtor.Ten countries are in violation of Section 620q of the Foreign Assistance Act (FAA), owing $31.2 million that is
   more than six months delinquent. Nine countries are in violation of the brooke-Alexander Amendment to the Foreign
   Operations Export Financing and related Programs Appropriations Act, owing $440.7 million that is more than one
   year delinquent. Outstanding direct loans receivable for countries in violation of Section 620q totaled $21.4 million.
   Outstanding direct loans receivable for countries in violation of the brooke Amendment totaled $401.7 million.

2. The mSEd Liquidating Account general ledger has a loan receivable balance of $29 thousand. This includes a loan
   pending closure.This loan is being carried at 100 percent bad debt allowance.




NoTE 7. INVENToRY AND RElATED PRoPERTY, NET
uSAId’s Inventory and related Property is comprised of Operating materials and Supplies. Operating materials and
Supplies as of September 30, 2007 and 2006 are as follows:

                                                 Inventory and Related Property
                                                     (Dollars in Thousands)

                                                                                                2007             2006
 Items Held for Use
    Office Supplies                                                                         $   12,783       $   14,895
 Items Held in Reserve for Future Use
    disaster Assistance materials and Supplies                                                   7,599           16,074
    birth Control Supplies                                                                      15,371           22,376
 Total                                                                                      $   35,753       $   53,345

Operating materials and Supplies are considered tangible properties that are consumed in the normal course of business
and not held for sale. The valuation is based on historical acquisition costs that do not exceed capitalization criteria of
$25 thousand. There are no items considered as obsolete or unserviceable, and currently there are no restrictions on
their use. Inventory costing less than $25 thousand is expensed as incurred.




                                                                                                                              47
                                                                                                            Appendix IV
                                                                                                           Page 24 of 40




NoTE 8. GENERAl PRoPERTY, PlANT AND EqUIPmENT, NET
                                    General Property, Plant and Equipment, Net
                                              (Dollars in Thousands)

                                                                                                       Net Book      Net Book
                                                                                      Accumulated       Value         Value
                                                     Useful life           Cost       Depreciation       2007          2006
The components of PP&E as of September 30, 2007
are as follows:
Classes of Fixed Assets
   Equipment                                          3 to 5 years     $    89,697   $   (58,126)     $   31,571    $        37,275
   buildings, Improvements, and renovations             20 years            74,581       (36,267)         38,314             42,823
   Land and Land rights                                  N/A                 2,456         N/A             2,456              3,139
   Assets under Capital Lease (Note 9)                                       8,190        (2,653)          5,537              4,739
   Construction in Progress                              N/A                  570                –           570               570
   Internal use Software                              3 to 5 years          36,172       (26,122)         10,050             15,448
Total                                                                  $   211,666   $ (123,168)      $   88,498    $    103,994




The threshold for capitalizing or amortizing assets                  Structures and Facilities include uSAId owned office
is $25 thousand. Assets purchased prior to FY 2003                   buildings and residences at foreign missions, including the
are depreciated using the straight line depreciation                 land on which these structures reside. These structures
method. Assets purchased during FY 2003 and beyond                   are used and maintained by the field missions. uSAId
are depreciated using the mid-quarter convention                     does not separately report the cost of the building and
depreciation method. depreciable assets are assumed                  the land on which the building resides.
to have no remaining salvage value. There are currently
                                                                     Land consists of property owned by uSAId in foreign
no restrictions on Property, Plant and Equipment (PP&E)
                                                                     countries. Land is generally procured for the construction
assets.
                                                                     of buildings.
uSAId PP&E includes assets located in Washington, d.C.
offices and overseas field missions.

Equipment consists primarily of electric generators, AdP
hardware, vehicles and copiers located at the overseas
field missions.




                                                                                                                        48
                                                                                                                Appendix IV
                                                                                                               Page 25 of 40




NoTE 9. lEASES
As of September 30, 2007 and 2006 Leases consisted of the following:

                                                              leases
                                                      (Dollars in Thousands)

Entity as lessee
   Capital leases:                                                                         2007              2006
   Summary of Assets under Capital Lease:
      buildings                                                                        $     8,190       $     6,899
      Accumulated depreciation                                                         $    (2,653)      $    (2,160)
   Net Assest under Capital Leases                                                     $     5,537       $     4,739

description of Lease(s) Arrangements: Capital leases consist of rental ageements entered into by missions for
warehouses, parking lots, residential space, and office buildings. These leases are 1 year or more in duration.
   Future Payments Due:
   Fiscal Year                                                                        Future Costs     Future Costs
      2007                                                                             $       –        $     285
      2008                                                                                   297              195
      2009                                                                                   297              117
      2010                                                                                   297              117
      2011                                                                                   232               45
      2012                                                                                    52                –
      After 5 Years                                                                           77              237
   Net Capital Lease Liability                                                         $     1,252       $      996
   Lease Liabilities Covered by budgetary resources                                    $     1,252       $      996




   operating leases:                                                                       2007              2006
   Future Payments Due:
   Fiscal Year                                                                        Future Costs     Future Costs
      2007                                                                             $        –       $   34,510
      2008                                                                                 33,668           37,271
      2009                                                                                 35,003           40,253
      2010                                                                                 36,391           43,473
      2011                                                                                 37,769           46,951
      2012                                                                                 39,090                –
      After 5 Years                                                                        40,677          105,470
   Total Future Lease Payments                                                         $   222,598       $   307,928


Of the $222.6 million in future lease payment,$221.3 is for the uSAId headquarters in Washington,d.C. The current lease
agreement is for approximately 550,000 sq. feet and will expire in FY 2010. The lessor, General Services Administration
(GSA), charges commercial rates for uSAId’s occupancy. Lease payments for FY 2007 and FY 2006 amounted to $40.6
million and $40.5 million, respectively.




                                                                                                                          49
                                                                                                               Appendix IV
                                                                                                              Page 26 of 40




NoTE 10. ACCoUNTS PAYABlE
The Accounts Payable covered by budgetary resources as of September 30, 2007 and 2006 consisted of the following:

                                  Accounts Payable Covered by Budgetary Resources
                                               (Dollars in Thousands)

                                                                                          2007                          2006
 Intragovernmental
     Accounts Payable                                                             $        62,099               $        62,052
     disbursements in Transit                                                                    2                             24
 Total Intragovernmental                                                                   62,101                        62,076
     Accounts Payable                                                                 2,341,025                     2,247,006
     disbursements in Transit                                                              26,932                        20,715
 Total with the Public                                                                2,367,957                     2,267,721
 Total Accounts Payable                                                           $ 2,430,058                   $ 2,329,797

Intragovernmental Accounts Payable are those payable to other federal agencies and consist mainly of unliquidated
obligation balances related to interagency agreements between uSAId and other federal agencies.

All other Accounts Payable represent liabilities to other non-federal entities.

Note 20 describes the change in the FY 2007 Accounts Payable beginning balance as a result of a change in accounting
principle.


NoTE 11. DEBT
uSAId Intragovernmental debt as of September 30, 2007 and 2006 consisted of the following borrowings from Treasury
for post-1991 loan programs, which is classified as other debt:

                                                Intragovernmental Debt
                                                 (Dollars in Thousands)

                                              2006                             2006                                       2007
                                            Beginning           Net           Ending                Net                  Ending
          Debt Due to Treasury               Balance         Borrowing        Balance            Borrowing               Balance
 urban and Environmental                $          –     $          –     $           –      $           –          $               –
 direct Loan                                  422,602           51,453         474,055               24,451               498,506
 mSEd                                              –                –                 –                  –                          –
 Total Treasury debt                    $     422,602    $      51,453    $    474,055       $       24,451         $     498,506

Pursuant to the Credit reform Act of 1990, agencies with credit programs have permanent indefinite authority to borrow
funds from the Treasury. These funds are used to disburse new direct loans to the public and, in certain situations, to
cover credit reform program costs. Liquidating (pre-1992) accounts have permanent indefinite borrowing authority to
be used to cover program costs when they exceed account resources. uE Program debt includes amounts borrowed
before the effective date of the Credit reform Act of 1990.

The above disclosed debt is principal and accrued interest of $24.5 million payable to Treasury, which represents financing
account borrowings from Treasury under the Credit reform Act and net liquidating account equity in the amount of
$4.1 billion, which under the Credit reform Act is required to be recorded as due to Treasury. both of these accounts
are used exclusively for credit reform activity. All debt shown is intragovernmental debt.


                                                                                                                           50
                                                                                                                      Appendix IV
                                                                                                                     Page 27 of 40




NoTE 12. oTHER lIABIlITIES
As of September 30, 2007 and 2006 Other Liabilities consisted of the following:

                                                            other liabilities
                                                          (Dollars in Thousands)

                                                                                                2007              2006
 Intragovernmental
     OPAC Suspense                                                                      $        43,316   $              –
     unfunded FECA Liability                                                                      6,469             8,500
     deposit and Clearing Accounts                                                                8,165              847
     Credit Program undisbursed Loans                                                           149,431            24,270
     Other                                                                                        8,624             9,034
 Total Intragovernmental                                                                $       216,005   $        42,651
     Accrued Funded Payroll and Leave (Note 14)                                                  14,055             9,207
     unfunded Leave (Note 13)                                                                    25,415            34,405
     Advances From Others                                                                          986               595
     deferred Credits                                                                            10,095             7,120
     Foreign Currency Trust Fund                                                                288,171           327,371
     Capital Lease Liability (Note 9)                                                             1,252              996
     Custodial Liability                                                                          2,617             3,741
     Other Liabilities                                                                           56,031            45,353
 Total Liabilities With the Public                                                      $       398,622   $       428,788

 Total Other Liabilities                                                                $       614,627   $       471,439

All liabilities are current. Intragovernmental Liabilities represent amounts due to other federal agencies. All remaining
Other Liabilities are liabilities to non-federal entities.

For FY 2006, the Online Payment and Collection (OPAC) balance was recorded as a net account receivable to uSAId
for a total of $6.2 million.


NoTE 13. ACCRUED UNFUNDED ANNUAl lEAVE AND SEPARATIoN PAY
Accrued unfunded benefits for annual leave and separation pay as of September 30, 2007 and 2006 are:

                                                       Accrued Unfunded Benefits
                                                         (Dollars in Thousands)

                                                                                                2007              2006
 liabilities Not Covered by Budgetary Resources
     Accrued Annual Leave                                                                   $    24,563       $    33,304
     FSN Separation Pay Liability                                                                   852             1,101
 Total Accrued unfunded Annual Leave and Separation Pay (Note 12)                           $    25,415       $    34,405




                                                                                                                               51
                                                                                                           Appendix IV
                                                                                                          Page 28 of 40




NoTE 14. FEDERAl EmPloYEES ANDVETERAN’S BENEFITS
The provision for workers’ compensation benefits payable as of September 30, 2007 and 2006 are indicated in the table
below. These liabilities are included in the Intragovernmental Other Liabilities line item on the Consolidated balance
Sheet and are not covered by budgetary resources.

                                      Accrued Unfunded workers’ Compensation Benefits
                                                   (Dollars in Thousands)

                                                                                                2007                 2006
 liabilities Not Covered by Budgetary Resources
    Future Workers’ Compensation benefits                                                   $    22,282          $    23,438
    Accrued Funded Payroll and Leave (Note 12)                                                   14,055                9,207
    Total Accrued unfunded Workers’ Compensation benefits                                   $    36,337          $    32,645



The Federal Employees Compensation Act (FECA)                  For FY 2006,uSAId’s total FECA liability was $32.6 million
program is administered by the u.S. department of              and comprised of unpaid FECA billings for $9.2 million
Labor (dOL) and provides income and medical cost               and estimated future FECA costs of $23.4 million.
protection to covered Federal civilian employees who
                                                               The actuarial estimate for the FECA unfunded liability
have been injured on the job or have incurred a work-
                                                               is determined by the dOL using a method that utilizes
related occupational disease. Compensation is given to
                                                               historical benefit payment patterns. The projected annual
beneficiaries of employees whose death is attributable to
                                                               benefit payments are discounted to present value using
a job-related injury or occupational disease. dOL initially
                                                               economic assumption for 10-year Treasury notes and
pays valid FECA claims for all Federal government agencies
                                                               bonds and the amount is further adjusted for inflation.
and seeks reimbursement two fiscal years later from the
                                                               Currently, the projected number of years of benefit
Federal agencies employing the claimants.
                                                               payments is 37 years.
For FY 2007,uSAId’s total FECA liability was $36.3 million
and comprised of unpaid FECA billings for $22.3 million
and estimated future FECA costs of $14.1 million.




NoTE 15. CommITmENTS AND CoNTINGENCIES 


uSAId is involved in certain claims, suits, and complaints       The first case is a contract claim arising out of a
that have been filed or are pending. These matters are in        contractor’s contract to repair and operate an Iraqi
the ordinary course of the Agency’s operations and are not       port. The estimated loss is $4.4 million.
expected to have a material adverse effect on the Agency’s
                                                                 The second case is a contract claim that uSAId
financial operations.
                                                                 wrongfully withheld payment for invoices submitted
As of September 30, 2007 a total of twelve cases were            under “Hurricane mitch” host-country, contract in
pending.                                                         Honduras. The estimated loss is $2.2 million.

Seven cases have been designated as reasonably possible, a
total of $13.7 million:




                                                                                                                     52
                                                                                                                      Appendix IV
                                                                                                                     Page 29 of 40




   The third case is a companion case. A contractor seeks            proved unsafe and was removed from the hospitals.
   compensation for efforts and expenses it claims to have           The estimated loss is $1 million.
   incurred under a terminated host country contract
   with the Honduran Government. The estimated loss                  The seventh case is a case where a contractor seeks
   is $1.8 million.                                                  costs that were incurred by one of its subcontractors;
                                                                     however uSAId disputes those costs as unsubstantiated.
   The fourth case is an appeal of the Contracting                   The estimated loss is $1.8 million.
   Officer’s disallowance of the costs of supplemental
                                                                  Also, the Agency submitted one unasserted claim and
   Accidental death and dismemberment and business
                                                                  assessment. The matter related to the early termination of
   Travel Insurance for contractor employees related to
                                                                  the Homer lease agreement. The amount of potential loss is
   initial deployment to Iraq. The estimated loss is over
                                                                  $2,940,000, which is $60,000 less then what was disclosed
   $1 million.
                                                                  in 2006 financial statements. An adjusting journal entry
   The fifth case is an appeal of a contractor for claims         was made to reflect the new potential loss in the second
   that arise out of the storage and delivery of 483 health       quarter of 2007.
   kits in Iraq. The estimated loss is $1.5 million.
                                                                  The statuses of the remaining four litigation cases are at a
   The sixth case is a case that uSAId/Egypt disallowed           remote designation.
   costs already paid to a contractor for incubators that
   were installed in Egyptian hospitals but which quickly



NoTE 16. lIABIlITIES NoT CoVERED BY BUDGETARY RESoURCES
Liabilities Not Covered by budgetary resources as of September 30, 2007 and 2006 are as follows:

                                          liabilities Not Covered by Budgetary Resources
                                                        (Dollars in Thousands)

                                                                                                  2007            2006
liabilities Not Covered by Budgetary Resources
   Accrued unfunded Annual Leave and Separation Pay                                                25,415           34,405
   Accrued unfunded Workers Compensation benefits                                                  36,337           32,645
   debt - Contingent Liabilities for Loan Guarantees                                              124,793          160,266
Total Liabilities Not Covered by budgetary resources                                               186,545          227,316
Total Liabilities Covered by budgetary resources                                                 9,247,635        9,223,399
Total Liabilities                                                                              $ 9,434,180      $ 9,450,715

Accrued unfunded annual leave, workmen compensation benefits, and separation pay represent future liabilities not
currently funded by budgetary resources, but will be funded as it becomes due with future resources. The Contingent
Liabilities for Loan Guarantees is in the pre-Credit reform urban and Environmental (uE) Housing Loan Guarantee
liquidating fund. As such, it represents the estimated liability to lenders for future loan guarantee defaults in that
program.




                                                                                                                                 53
                                                                                                                                            Appendix IV
                                                                                                                                           Page 30 of 40




                NoTE 17. INTRAGoVERNmENTAl CoSTS AND ExCHANGE REVENUE 

                The Consolidated Statement of Net Cost reports the                        Note 17 shows the value of exchange transactions
                Agency’s gross costs less earned revenues to arrive at net                between uSAId and other Federal entities as well as non-
                cost of operations by Objective and Program Area, as of                   Federal entities.These are also categorized by Objectives,
                September 30, 2007.These objectives are consistent with                   Program Areas and responsibility Segments. responsibility
                the new State/uSAId’s Strategic Planning Framework.                       Segments are defined in Note 18.

                In FY 2007, as part of the annual certification process                   Intragovernmental costs and exchange revenue sources
                for mapping strategic objectives to performance goals,                    relate to transactions between uSAId and other Federal
                strategic objectives assigned to performance goals under                  entities. Public costs and exchange revenues on the other
                Homeland Security strategic goal were reassigned to                       hand relate to transactions between uSAId and non-
                Peace and Security strategic goal.                                        Federal entities.

                The format of the Consolidated Statement of Net Cost is
                consistent with Omb Circular A-136 guidance.


                                     U.S.Agency for International Development
                  INTRAGoVERNmENTAl CoSTS AND ExCHANGE REVENUE BY RESPoNSIBIlITY SEGmENT
                                  For the Years Ended September 30, 2007 and 2006
                                                (Dollars in Thousands)

                                                                                                          latin
                                                 Asia &                              Europe              America      Intra-
                                                 Near                                  &         Global     &        Agency                 2007              2006
objective                              Africa     East         DCHA         EGAT     Eurasia     Health Caribbean Eliminations              Total             Total

Peace and Security
  Intragovernmental Costs          $      1,884 $    5,382 $      1,697 $       77 $ 2,951 $          – $     412      $       (109)   $       12,294           21,222
  Public Costs                           34,055    261,490       50,924      1,745   81,927           –    21,755            (3,979)          447,917          546,614
     Total Program Costs                 35,939    266,872       52,621      1,822   84,878           –    22,167            (4,088)          460,211          567,836
  Intragovernmental Earned revenue          (58)      (275)        (263)         –     (235)          –       (31)              111              (751)          (2,214)
  Public Earned revenue                     (37)      (180)         (63)         –     (153)          –       (20)               58              (395)          (2,994)
     Total Earned revenue                   (95)      (455)        (326)         –     (388)          –       (51)              169            (1,146)          (5,208)
Net Program Costs                       35,844    266,417       52,295       1,822  84,490            –   22,116            (3,919)          459,065          562,628

Governing Justly and Democratically
  Intragovernmental Costs             10,254         8,854        3,373        121     14,699         –       2,251            (348)           39,204          60,496
  Public Costs                       147,272       662,723       68,012      2,511    304,477         –      93,604         (11,258)        1,267,341       1,398,439
     Total Program Costs             157,526       671,577       71,385      2,632    319,176         –      95,855         (11,606)        1,306,545       1,458,935
  Intragovernmental Earned revenue      (324)         (538)        (392)         –     (1,149)        –        (150)            328            (2,225)         (8,794)
  Public Earned revenue                 (183)         (338)         (91)         –       (751)        –         (98)            188            (1,273)         (8,403)
     Total Earned revenue               (507)         (876)        (483)         –     (1,900)        –        (248)            516            (3,498)        (17,197)
Net Program Costs                   157,019       670,701       70,902       2,632   317,276          –     95,607         (11,090)        1,303,047       1,441,738

Investing in People
   Intragovernmental Costs               40,849     20,469        1,707     5,246      11,574   176,871      11,942         (2,366)           266,292          216,618
   Public Costs                         638,872    982,243       67,011    74,593     187,323 1,085,327     240,936        (28,848)         3,247,457        3,501,544
      Total Program Costs               679,721  1,002,712       68,718    79,839     198,897 1,262,198     252,878        (31,214)         3,513,749        3,718,162
   Intragovernmental Earned revenue      (1,178)    (1,127)       (150) (102,264)        (671) (291,682)       (394)        51,133           (346,333)        (124,463)
   Public Earned revenue                   (770)      (737)         (97) (150,408)       (439)   (5,362)       (257)        20,335           (137,735)         (21,546)
      Total Earned revenue               (1,948)    (1,864)       (247) (252,672)      (1,110) (297,044)       (651)        71,468           (484,068)        (146,009)
Net Program Costs                      677,773 1,000,847        68,471 (172,833)     197,787 965,154       252,227         40,254          3,029,681       3,572,153
                                                                                                                                               (continued on next page)



                                                                                                                                                         54
                                                                                                                                        Appendix IV
                                                                                                                                       Page 31 of 40



                                    U.S.Agency for International Development

                 INTRAGoVERNmENTAl CoSTS AND ExCHANGE REVENUE BY RESPoNSIBIlITY SEGmENT

                                 For the Years Ended September 30, 2007 and 2006

                                               (Dollars in Thousands)


                                                                                                           latin
                                                 Asia &                               Europe              America      Intra-
                                                 Near                                   &         Global     &        Agency              2007           2006
objective                            Africa       East       DCHA         EGAT        Eurasia     Health Caribbean Eliminations           Total          Total

Economic Growth
  Intragovernmental Costs              25,807     30,717          89        94,221      16,088         –     13,605          (1,590)        178,937        201,025
  Public Costs                        333,873  1,755,572       3,863       363,442     289,283         –    204,520         (25,979)      2,924,574      3,714,437
     Total Program Costs              359,680  1,786,289       3,952       457,663     305,371         –    218,125         (27,569)      3,103,511      3,915,462
  Intragovernmental Earned revenue       (654)    (1,541)         (8)       (3,286)     (1,089)        –       (328)            888          (6,018)       (12,331)
  Public Earned revenue                  (427)    (1,007)        (60)     (108,440)       (712)        –       (214)         14,262         (96,598)       (20,184)
     Total Earned revenue              (1,081)    (2,548)        (68)     (111,726)     (1,801)        –       (542)         15,150        (102,616)       (32,515)
Net Program Costs                    358,599 1,783,741         3,884      345,937     303,570          –   217,583         (12,419)      3,000,895      3,882,947

Humanitarian Assistance
  Intragovernmental Costs                354        5,910      49,984            2       1,329         –       369             (510)         57,438        97,385
  Public Costs                         6,285      220,640     558,292      528,976      24,277         –     5,567          (11,834)      1,332,203       747,407
     Total Program Costs               6,639      226,550     608,276      528,978      25,606         –     5,936          (12,344)      1,389,641       844,792
  Intragovernmental Earned revenue        (11)       (233)      (2,936)          –         (98)        –        (10)            423          (2,865)       (2,077)
  Public Earned revenue                    (7)       (153)        (599)          –         (64)        –         (6)            107            (722)       (3,879)
     Total Earned revenue                 (18)       (386)     (3,535)           –        (162)        –        (16)            530          (3,587)       (5,956)
Net Program Costs                      6,621     226,164     604,741      528,978      25,444          –     5,920         (11,814)      1,386,054       838,836

operating Unit management
  Intragovernmental Costs                  874      8,529     1,611   2,860     3,564        –       594                       (159)         17,873       4,423
  Public Costs                          10,023     17,542     8,900   3,399    57,468        –     3,041                       (884)         99,489      51,605
     Total Program Costs                10,897     26,071    10,511   6,259    61,032        –     3,635                     (1,043)        117,362      56,028
  Intragovernmental Earned revenue          (5)       (23)      (20)     (49)     (55)       –         (1)                       20            (133)       (222)
  Public Earned revenue                     (3)        (4)      (13)     (32)     (36)       –          –                        11             (77)       (384)
     Total Earned revenue                   (8)       (27)      (33)     (81)     (91)       –         (1)                       31            (210)       (606)
Net Program Costs                      10,889     26,044    10,478    6,178   60,941         –     3,634                    (1,012)        117,152      55,422
Net Costs of operations            $1,246,745 $3,973,915 $ 810,771 $712,714 $989,508 $ 965,154 $ 597,087               $          –     $9,295,894 $10,353,724




                                                                                                                                                   55
                                                                                                                                Appendix IV
                                                                                                                               Page 32 of 40

NoTE 18. SCHEDUlE oF CoST BY RESPoNSIBIlITY SEGmENTS
The Schedule of Costs by responsibility Segment categorizes costs and revenues by Objectives, Program Areas and
responsibility Segment.

A responsibility segment is the component that carries out a mission or major line of activity, and whose manager
reports directly to top management. The geographic and technical bureaus of uSAId (below) meet the criteria of a
responsibility segment.These bureaus directly support the Agency goals while the remaining bureaus and offices support
the operations of these bureaus. To report the full cost of program outputs, the cost of support bureaus and offices are
allocated to the outputs of the geographic and technical bureaus. Intra-agency eliminations are allocated to Program
Areas to reflect total costs.

                    FY 2007 STATEmENT oF NET CoST BY RESPoNSIBIlITY SEGmENTS
 Geographic Bureaus                                                Technical Bureaus
    Africa (AFr)                                                          democary, Conflict, and Humanitarian Assistance (dCHA)
    Asia and Near East (ANE)                                              Economic Growth,Agriculture, and Trade (EGAT)
    Latin America and the Caribbean (LAC)                                 Global Health (GH)
    Europe and Eurasia (E&E)


                                        U.S.Agency for International Development

                                   SCHEDUlE oF CoSTS BY RESPoNSIBIlITY SEGmENT

                                         For the Year Ended September 30, 2007

                                                  (Dollars in Thousands)


                                                                                                                   latin       Intra-
                                                Asia &                                 Europe &     Global       America &    Agency    Consolidated
objective                           Africa     Near East       DCHA         EGAT        Eurasia     Health       Caribbean Eliminations    Total

Peace and Security
  Counter-Terrorism
     Gross Costs                  $       1,019 $       17 $     5,177 $           – $        – $            – $         – $        (55) $         6,158
     Less: Exchange revenues                 (2)         –         (21)            –          –              –           –            3              (20)
     Net Program Costs                    1,016         17       5,156             –          –              –           –          (52)           6,138
  Combating Weapons of mass destruction (Wmd)
     Gross Costs                              –          –       5,177             –     18,179              –           –         (206)          23,150
     Less: Exchange revenues                  –          –         (21)            –          –              –           –            3              (18)
     Net Program Costs                        –          –       5,156             –     18,179              –           –         (203)          23,132
  Stabilization Operations and Security Sector reform
     Gross Costs                          3,935     17,482       6,279             –      1,546              –       2,901         (283)          31,860
     Less: Exchange revenues                 (6)         –         (21)            –         (8)             –          (8)           6              (37)
     Net Program Costs                    3,929     17,482       6,258             –      1,538              –       2,893         (277)          31,823
  Counter-Narcotics
     Gross Costs                            560    163,018       5,178             –      2,133              –        460        (1,508)      169,841
     Less: Exchange revenues                 (1)      (359)        (21)            –        (14)             –         (1)           51          (345)
     Net Program Costs                      559    162,659       5,157             –      2,119              –        459        (1,457)      169,496
  Transnational Crime
     Gross Costs                            956     16,914       5,177        1,811      21,300              –       6,805         (466)          52,497
     Less: Exchange revenues                 (3)       (38)        (21)           –        (141)             –         (18)          27             (194)
     Net Program Costs                      953     16,876       5,156        1,811      21,159              –       6,787         (439)          52,303
  Conflict mitigation and reconciliation
     Gross Costs                         29,469     69,441      25,633          11       41,720              –      12,001       (1,570)       176,705
     Less: Exchange revenues                (83)       (58)       (221)          –         (225)             –         (24)          79           (532)
     Net Program Costs                   29,386     69,383      25,412          11       41,495              –      11,977       (1,491)       176,173
                                                                                                                                 (continued on next page)


                                                                                                                                             56
                                                                                                                                                  Appendix IV
                                                                                                                                                 Page 33 of 40




                                          U.S.Agency for International Development

                                     SCHEDUlE oF CoSTS BY RESPoNSIBIlITY SEGmENT

                                           For the Year Ended September 30, 2007

                                                    (Dollars in Thousands)


                                                                                                                      latin       Intra-
                                                  Asia &                                  Europe &     Global       America &    Agency    Consolidated
objective                             Africa     Near East       DCHA         EGAT         Eurasia     Health       Caribbean Eliminations    Total

Governing Justly and Democratically
  rule of Law and Human rights
     Gross Costs                      14,316         47,760        12,683        2,586      66,418              –      20,135       (1,443)      162,455
     Less: Exchange revenues              (42)         (107)         (302)           –        (384)             –         (52)         114          (773)
     Net Program Costs                14,274         47,653        12,381        2,586      66,034              –      20,083       (1,329)      161,682
  Good Governance
     Gross Costs                      78,979       493,712         15,285          46       80,186              –      36,433       (6,204)      698,437
     Less: Exchange revenues            (279)         (566)           (37)          –         (512)             –         (96)         191        (1,299)
     Net Program Costs                78,700       493,146         15,248          46       79,674              –      36,337       (6,013)      697,138
  Political Competition and Consensus-building
     Gross Costs                      34,069         62,642        21,806            –      51,962              –      20,851       (1,685)      189,645
     Less: Exchange revenues            (100)           (80)          (80)           –        (290)             –         (54)          78          (526)
     Net Program Costs                33,969         62,562        21,726            –      51,672              –      20,797       (1,607)      189,119
  Civil Society
     Gross Costs                      30,162         67,463        21,611            –     120,610              –      18,436       (2,274)      256,008
     Less: Exchange revenues              (86)         (123)          (64)           –        (714)             –         (46)         133          (900)
     Net Program Costs                30,076         67,340        21,547            –     119,896              –      18,390       (2,141)      255,108

Investing in People
   Health
     Gross Costs                      508,548       621,967        11,134         122      141,966    1,262,198       167,920      (23,896)    2,689,959
     Less: Exchange revenues            (1,459)      (1,177)           (15)        (1)        (756)    (297,044)         (439)      38,709      (262,183)
     Net Program Costs                507,089       620,790        11,119         120      141,210      965,154       167,481       14,813     2,427,776
   Education
     Gross Costs                      160,093       368,273        30,371      43,821       26,105              –      77,211       (6,215)      699,659
     Less: Exchange revenues              (456)        (660)          (125)      (533)        (129)             –        (191)         269        (1,825)
     Net Program Costs                159,637       367,613        30,246      43,288       25,976              –      77,020       (5,946)      697,834
   Social and Economic Services and Protection for Vulnerable Populations
     Gross Costs                       11,080        12,472        27,213       35,896      30,826              –       7,747      (1,103)       124,131
     Less: Exchange revenues               (33)         (27)          (107)   (252,137)       (225)             –         (21)     32,490       (220,060)
     Net Program Costs                 11,047        12,445        27,106     (216,241)     30,601              –       7,726      31,387        (95,929)

Economic Growth
  macroeconomic Foundation for Growth
     Gross Costs                    8,677            97,697           584       62,470      33,120              –      33,522      (2,078)       233,992
     Less: Exchange revenues          (23)              (73)           (1)    (106,430)       (185)             –         (67)     13,736        (93,043)
     Net Program Costs              8,654            97,624           583      (43,960)     32,935              –      33,455      11,658        140,946
  Trade and Investment
     Gross Costs                   16,269          210,858            405      10,913       16,372              –      32,493       (2,530)      284,780
     Less: Exchange revenues          (47)            (175)            (2)       (147)         (88)             –         (84)          70          (473)
     Net Program Costs             16,222          210,683            403      10,766       16,284              –      32,409       (2,460)      284,307
                                                                                                                                    (continued on next page)




                                                                                                                                                               57
                                                                                                                             Appendix IV
                                                                                                                            Page 34 of 40



                                         U.S.Agency for International Development

                                    SCHEDUlE oF CoSTS BY RESPoNSIBIlITY SEGmENT

                                          For the Year Ended September 30, 2007

                                                   (Dollars in Thousands)


                                                                                                                 latin       Intra-
                                                    Asia &                            Europe &    Global       America &    Agency    Consolidated
objective                           Africa         Near East    DCHA       EGAT        Eurasia    Health       Caribbean Eliminations    Total

  Financial Sector
      Gross Costs                        10,645     340,456        423      10,596      45,109             –       6,007       (3,639)    409,597
      Less: Exchange revenues               (32)       (107)        (2)       (142)       (310)            –         (16)          78        (531)
      Net Program Costs                  10,613     340,349        421      10,454      44,799             –       5,990       (3,561)    409,066
  Infrastructure
      Gross Costs                        37,284     421,560        641      71,534      29,366             –       4,661       (4,975)    560,071
      Less: Exchange revenues              (103)       (698)        (2)       (979)       (154)            –         (12)         251      (1,697)
      Net Program Costs                  37,181     420,862        639      70,555      29,212             –       4,649       (4,724)    558,374
  Agriculture
      Gross Costs                       171,903     129,504        453     152,373      49,011             –      28,207       (4,679)    526,772
      Less: Exchange revenues              (527)       (254)        (2)     (2,086)       (273)            –         (75)         414      (2,803)
      Net Program Costs                 171,376     129,250        451     150,287      48,738             –      28,132       (4,265)    523,969
  Private Sector Competitiveness
      Gross Costs                        34,355     309,897        495      11,463     115,774             –      13,712       (4,277)    481,419
      Less: Exchange revenues               (99)       (644)        (2)       (152)       (708)            –         (34)         211      (1,428)
      Net Program Costs                  34,256     309,253        493      11,311     115,066             –      13,678       (4,066)    479,991
  Economic Opportunity
      Gross Costs                        20,486     152,698        562      53,994       7,633             –      38,369       (2,410)    271,332
      Less: Exchange revenues               (63)       (316)       (55)       (649)        (28)            –        (101)         156      (1,056)
      Net Program Costs                  20,423     152,382        507      53,345       7,605             –      38,268       (2,254)    270,276
  Environment
      Gross Costs                        60,061     123,619        389      84,320       8,986             –      61,154       (2,981)    335,548
      Less: Exchange revenues              (187)       (281)        (2)     (1,141)        (55)            –        (153)         234      (1,585)
      Net Program Costs                  59,874     123,338        387      83,179       8,931             –      61,001       (2,747)    333,963

Humanitarian Assistance
  Protection,Assistance and Solutions
     Gross Costs                          3,667     222,783     328,657           –     20,044             –       5,349       (5,111)    575,389
     Less: Exchange revenues                 (9)       (379)     (1,808)          –       (130)            –         (14)         301      (2,040)
     Net Program Costs                    3,658     222,405     326,849           –     19,914             –       5,335       (4,810)    573,349
  disaster readiness
     Gross Costs                          2,972        3,767    279,229    528,978       4,860             –        587        (7,223)    813,170
     Less: Exchange revenues                 (9)          (7)    (1,725)         –         (31)            –         (2)          229      (1,545)
     Net Program Costs                    2,963        3,760    277,504    528,978       4,829             –        585        (6,994)    811,625
  migration management
     Gross Costs                              –            –       390            –        702             –           –         (10)         1,082
     Less: Exchange revenues                  –            –        (2)           –          –             –           –           –             (2)
     Net Program Costs                        –            –       388            –        702             –           –         (10)         1,080

operating Unit management
  Cross-cutting management and Staffing
     Gross Costs                      10,897   26,071            10,511     6,259    61,032         –     3,635                (1,043)    117,362
     Less: Exchange revenues              (8)     (27)              (33)      (81)      (91)        –        (1)                   31        (210)
     Net Program Costs                10,889   26,044            10,478     6,178    60,941         –     3,634                (1,012)    117,152
Net Cost of Operations         $ 1,246,745 $3,973,915 $         810,771 $ 712,714 $ 989,508 $ 965,154 $ 597,087 $                   – $ 9,295,894




                                                                                                                                         58
                                                                                                                       Appendix IV
                                                                                                                      Page 35 of 40



NoTE 19. STATEmENT oF BUDGETARY RESoURCES
A. Apportionment Categories of Obligations Incurred:(Dollars in Thousands)

                                                                                             2007                 2006
Category A, direct                                                                      $      745,601      $       731,684 

Category b, direct                                                                          10,846,162            8,386,807 

Category A, reimbursable                                                                        11,992                5,526
Category b, reimbursable                                                                       359,426               64,750
Total                                                                                   $ 11,963,181        $     9,188,767


B. Borrowing Authority, End of Period                          C.Adjustments to Beginning Balance
and Terms of Borrowing Authority Used:                         of Budgetary Resources:

uSAId did not have any credit financing activities,            Per Omb Circular A-136 guidance, activity related to
borrowing authority for FY 2007. For FY 2006, borrowing        the Executive Office of President is included in uSAId’s
authority was $52 million.                                     Statement of budgetary resources (Sbr) for FY 2007.
                                                               For comparative purposes, the table below shows the
borrowing Authority is indefinite and authorized under         net effect of this change on the FY 2007 Sbr beginning
the Credit reform Act of 1990 (P.L. 101-508), and is used      balances.
to finance obligations during the current year, as needed.


                                                       2006 Statement          Add: Executive            2007 Beginning
                                                        of Budgetary            office of the              Balance, as
                                                         Resources               President                  adjusted
Total Budgetary Resources                              $      14,508,742        $      182,834            $ 14,691,576
Obligated balance                                              9,188,767               180,103                  9,368,870
unobligated balance                                            5,319,975                    2,731               5,322,706
Total Status of Budgetary Resources                    $     14,508,742         $      182,834            $ 14,691,576
Total, unpaid Obligated balance, Net, End of Period           11,154,825               495,605              11,650,430
Net outlays                                            $      6,677,108         $    1,219,726            $ 7,896,834




The FY 2006 ending balance for the unobligated balance        E. Legal Arrangements Affecting the Use of
brought Forward increased by $2.7 million to $5.3 billion     Unobligated Balances:
and the unpaid Obligations balance brought forward
increased by $.5 billion to $11.7 billion.                    Pursuant to Section 511 of PL 107-115 funds shall remain
                                                              available until expended if such funds are initially obligated
                                                              before the expiration of their periods of availability.
D. Permanent Indefinite Appropriations:                       Any subsequent recoveries (deobligations) of these
uSAId has permanent indefinite appropriations relating        funds become unobligated balances that are available for
to specific Credit reform Program and Liquidating             reprogramming by uSAId (subject to Omb approval
appropriations. uSAId is authorized permanent indefinite      through the apportionment process).
authority for Credit reform Program appropriations for
subsidy reestimates and Credit reform Act of 1990.




                                                                                                                                59
                                                                                                            Appendix IV
                                                                                                           Page 36 of 40




NoTE 20. CHANGE IN ACCoUNTING PRINCIPlE FoR
FY 2007 BEGINNING BAlANCES
In accordance with requirements of Omb Circular A-136, uSAId financial statement reporting requirements for parent/
child activity encompasses the following where:

   uSAId is the child agency (i.e. budget authority has been transferred to uSAId from other federal agencies) financial
   activity is excluded from uSAId’s FY 2007 financial statements, with the exception of the Executive Office of the
   President

   uSAId is the parent agency (i.e. budget authority has been transferred to other federal agencies from uSAId)
   financial activity is included in uSAId’s FY 2007 financial statements.”

As a result, the FY 2007 beginning balance for total assets, total liabilities, and net position has changed as follows:

   Total assets decreased by $2.35 billion. This decrease is primarily attributable to a $2.3 billion decrease in the Fund
   balance with Treasury.

   Total liabilities decreased by $427.6 million. This decrease is mostly due to a decrease of $426 million in accounts
   payable.

   Net position decreased by $1.9 billion.



                              RESTATEmENT oF 2006 ENDING BAlANCES DUE To CHANGE 

                                    IN ACCoUNTING REPoRTING REqUIREmENTS

                                               (Dollars in Thousands)


                                                                     Transfers to      Transfers From         2007 Beginning
                                                 2006 Year End      other Federal      other Federal            Balance, as
                                                   Balance            Agencies            Agencies               Adjusted
 Fund balance with Treasury                       $ 19,333,383        $    506,221       $ (2,818,276)         $ 17,021,328
 All Other Assets                                    5,817,717               3,666             (41,909)           5,779,474
 Total Assets                                       25,151,100             509,887          (2,860,185)          22,800,802

 Accounts Payable                                     2,267,721              7,366            (433,400)            1,841,687
 All Other Liabilities                                7,185,994                659               (2,179)           7,184,474
 Total liabilities                                   9,453,715               8,025           (435,579)            9,026,161

 unexpended Appropriations                           14,334,819            502,661           (1,399,121)          13,438,359
 Cumulative results of Operations                     1,362,566               (799)          (1,025,485)             336,282
 Total Net Position                                 15,697,385             501,862          (2,424,606)          13,774,641

 Total liabilities and Net Position               $ 25,151,100        $    509,887       $ (2,860,185)         $ 22,800,802


Changes to beginning balances for Cumulative results of Operations and unexpended Appropriations are shown on the
Statement of Change in Net Position.




                                                                                                                     60
                                                                                                                           Appendix IV
                                                                                                                          Page 37 of 40




NoTE 21. RECoNCIlIATIoN oF oBlIGATIoNS To NET CoST oF
oPERATIoNS
                         RECoNCIlIATIoN oF oBlIGATIoNS To NET CoST oF oPERATIoNS
                                            (Dollars in Thousands)

                                                                                                       2007            2006

Resources Used to Finance Actvities:
   budgetary resources Obligated
       Obligations Incurred                                                                         $ 11,963,181    $ 11,631,780
       Spending authority from offsetting collections                                                 (1,203,063)     (1,308,668)
       Change in unfilled Customer Orders                                                                (58,516)         (4,653)
       downward Adjustments of Obligations                                                              (199,264)       (488,574)
       Offsetting receipts                                                                               25,925          41,784
   Net Obligations                                                                                    10,528,263       9,871,669
   Other resources used to finance activities                                                            21,857          19,288
   resources used to Finance Activities                                                               10,550,120       9,890,957
   resources used to Finance items not part of net cost of operations                                 (1,389,933)       692,096
Total resources used to Finance Net Cost of Operations                                                 9,160,187      10,583,053

Components of the Net Cost of operations:
   Components of Net Cost of Operations that will require or generate resources in future periods        47,009         (270,054)
   Components of Net Cost of Operations that will not require or generate resources                      88,698          40,725
Net Cost of Operations                                                                              $ 9,295,894     $ 10,353,724




                                                                                                                                    61
                                                                                                                                                                           Appendix IV
                                                                                                                                                                          Page 38 of 40




STATEmENT OF budGETArY rESOurCES

                                          U.S.Agency for International Development

                        REqUIRED SUPPlEmENTARY INFoRmATIoN: SCHEDUlE oF BUDGETARY RESoURCES

                                          For the period ended September 30, 2007

                                                   (Dollars in Thousands)


                                                                                                                                            Credit-                     Parent     Consolidated
                                                   operating                                 Program                                       Financing    other            Fund         Total
                                                     1000        1010        1021       1035         1037         1093         1095

Budgetary Resources:
unobligated balance, brought Forward, October 1    $ 117,038 $ 81,715 $ 126,303 $ 64,970           $2,522,728 $ 156,770      $ 288,529 $1,422,605 $ 497,434         $    49,040    $    5,327,132
recoveries of Prior Year unpaid Obligations           11,578       6,118      15,032     37,329        36,677       6,909       13,603            23     64,862           7,132          199,263
budget Authority:
   Appropriation                                     635,532    487,900     1,508,760   526,350     5,092,675    452,000      1,879,150            –    338,078              –         10,920,445
   borrowing Authority                                      –           –           –          –            –            –            –            –           –             –                  –
   Spending Authority from
      Offsetting Collections:
       Earned:
            Collected                                 12,292         20        1,310      2,172          293         103         5,805       227,843    947,144           9,516         1,206,498
            Change in receivables from Federal              –           –           –          –            –            –            –            –           –         (3,435)           (3,435)
            Sources
       Change in unfilled Customer Orders:
            Without Advance from Federal Sources      (3,414)        (19)       (541)      (809)            –         (20)       (2,822)           –     66,141              –            58,516
   Subtotal                                          644,410    487,901     1,509,529   527,713     5,092,968    452,083      1,882,133      227,843 1,351,363            6,081        12,182,024
Nonexpenditure Transfers, Net,                         9,524    (126,651)     32,170        17     (1,428,486)   (119,862)       8,861             –     67,123     1,635,702             78,398
  Anticipated and Actual
Permanently Not Available                               (474)     (2,316)       (642)          –     (201,678)     (4,964)            –            –    (769,964)            –           (980,038)
Total Budgetary Resources:                           782,076    446,767     1,682,392   630,029     6,022,209    490,936      2,193,126     1,650,471 1,210,818     1,697,955          16,806,779


Status of Budgetary Resources:
Obligations Incurred
   direct                                            706,243    186,975     1,377,261   500,108     4,471,264    347,459      2,058,451       68,154    328,087     1,547,761          11,591,763
   reimbursible                                        8,878            1        769      1,363          293          83         2,983             –    347,532           9,516          371,418
   Subtotal                                          715,121    186,976     1,378,030   501,471     4,471,557    347,542      2,061,434       68,154    675,619     1,557,277          11,963,181
unobligated balance:
   Apportioned                                        41,157    257,094      254,757    107,320     1,515,907    130,807       123,079         3,663    142,227         130,696         2,706,707
   Exempt from Apportionment                                –           –           –          –            –            –            –            –           –             –                  –
   Subtotal                                           41,157    257,094      254,757    107,320     1,515,907    130,807       123,079         3,663    142,227         130,696         2,706,707
unobligated balance Not Available                     25,798       2,697      49,605     21,238        34,745     12,587         8,613      1,578,654   392,972           9,982         2,136,891
Total, Status of Budgetary Resources                 782,076    446,767     1,682,392   630,029     6,022,209    490,936      2,193,126     1,650,471 1,210,818     1,697,955          16,806,779

                                                                                                                                                                        (continued on next page)




                                                                                                                                                                                          62
                                                                                                                                                                   Appendix IV
                                                                                                                                                                  Page 39 of 40




                                  U.S.Agency for International Development

            REqUIRED SUPPlEmENTARY INFoRmATIoN: SCHEDUlE oF BUDGETARY RESoURCES (continued)

                                  For the period ended September 30, 2007w


                                                                                                                                          Credit-                  Parent      Consolidated
                                                 operating                                 Program                                       Financing    other         Fund          Total
                                                   1000       1010        1021        1035         1037         1093         1095

Change in obligated Balance:
Obligated balance, Net
   unpaid Obligations, brought Forward,            160,575    230,536    2,588,710    600,310     3,976,658    487,446      2,230,532        3,772 1,076,843        314,978        11,670,360
   October 1
   Less: uncollected Customer Payments from         (3,689)       (19)       (648)     (1,053)            –         (20)       (3,817)           –      (6,713)      (3,971)             (19,930)
   Federal Sources, brought Forward, October 1
   Total unpaid Obligated balance, Net             156,886    230,517    2,588,062    599,257     3,976,658    487,426      2,226,715        3,772 1,070,130        311,007        11,650,430
Obligations Incurred Net (+/-)                     715,121    186,976    1,378,030    501,471     4,471,557    347,542      2,061,434       68,155    675,619     1,557,277        11,963,182
Less: Gross Outlays                               (633,585) (135,511) (1,376,034) (505,352) (2,937,369)        (400,461)   (1,572,380)     (43,235)   (938,505)    (469,814)        (9,012,246)
Less: recoveries of Prior Year unpaid              (11,578)    (6,118)     (15,032)   (37,329)      (36,677)     (6,909)      (13,602)         (23)    (64,861)      (7,133)            (199,262)
   Obligations,Actual
Change in uncollected Customer Payments from         3,414        19          541        809              –         20          2,822            –     (66,141)       3,435              (55,081)
   Federal Sources (+/-)
Obligated balance, Net, End of Period
   unpaid Obligations                              230,533    275,883    2,575,674    559,100     5,474,169    427,618      2,705,983       28,669    749,096     1,395,308        14,422,033
   Less: uncollected Customer Payments from           (275)          –       (107)       (244)            –            –         (994)           –     (72,854)        (536)             (75,010)
      Federal Sources
Total, Unpaid obligated Balance, Net,              230,258    275,883    2,575,567    558,856     5,474,169    427,618      2,704,989       28,669    676,242     1,394,772        14,347,023
   End of Period

Net outlays:
   Gross Outlays                                   633,585    135,511    1,376,034    505,352     2,937,369    400,461      1,572,379       43,235    938,506       469,814         9,012,246
   Less: Offsetting receipts                       (12,292)       (20)      (1,310)    (2,172)         (293)       (103)       (5,805)    (227,843)   (947,144)      (9,516)        (1,206,498)
   Less: distributed Offsetting receipts                  –          –           –           –            –            –            –            –     (25,925)           –              (25,925)
Net outlays                                      $ 621,293 $ 135,491 $1,374,724 $ 503,180        $2,937,076 $ 400,358      $ 1,566,574 $ (184,608) $ (34,563) $ 460,298        $    7,779,823




                                                                                                                                                                                   63
                                                                                                                                                         Appendix IV
                                                                                                                                                        Page 40 of 40




mAJoR FUNDS                                           oTHER FUNDS                                              oTHER FUNDS (continued)
operating Funds                                       operating Funds                                          Credit Program Funds
1000 Operating Expenses of uSAId                      1007 Operating Expenses of uSAId Inspector General       0400 mSEd Program Fund
Program Funds                                         1036 Foreign Service retirement and disability Fund      0401 uE Program Fund
1010 Special Assistance Initiatives                   Program Funds                                            0402 ukraine Program Fund
1021 development Assistance                           1012 Sahel development Program                           1264 dCA Program Fund
1035 International disaster Assistance                1014 Africa development Assistance                       4103 Economic Assistance Loans - Liquidating Fund
1037 Economic Support Fund                            1023 Food and Nutrition development Assistance           4340 uE Guarantee Liquidating Fund
1093 Assistance for the N.I.S. Of The Former Soviet   1024 Population and Planning & Health dev.Asst.          4341 mSEd direct Loan Liquidating Fund
     union                                            1025 Education and Human resources, dev.Asst.            5318 Israel Admin Expense Fund
1095 Child Survival and disease Programs Funds        1027 Transition Initiatives                              Revolving Funds
                                                      1028 Global Fund to Fight HIV / AIdS                     4175 Property management Fund
CREDIT-FINANCING FUNDS                                1029 Tsunami relief and reconstruction Fund              4513 Working Capital Fund
4119 Israel Guarantee Financing Fund                  1038 Central American reconciliation Assistance          4590 Acquisition of Property, revolving Fund
4137 direct Loan Financing Fund                       1040 Sub-Saharan Africa disaster Assistance
4266 dCA Financing Fund                               1096 Latin American/Caribbean disaster recovery          AlloCATIoNS To oTHER AGENCIES
4342 mSEd direct Loan Financing Fund                  1500 demobilization and Transition Fund                  1000 Operating Expenses of uSAId
4343 mSEd Guarantee Financing Fund                    Trust Funds
                                                                                                               1010 Special Assistance Initiatives
4344 uE Financing Fund                                8342 Foreign Natl. Employees Separation Liability Fund
                                                                                                               1014 Africa development Assistance
4345 ukraine Financing Fund                           8502 Tech.Assist. - u.S. dollars Advance from Foreign
                                                      8824 Gifts and donations                                 1021 development Assistance
                                                                                                               1027 Transition Initiatives
                                                                                                               1032 Peacekeeping Operations
                                                                                                               1035 International disaster Assistance
                                                                                                               1037 Economic Support Fund
                                                                                                               1093 Assistance for the N.I.S. Of The Former Soviet
                                                                                                                    union
                                                                                                               1095 Child Survival and disease Programs Funds
                                                                                                               1096 International Organizations + Programs
                                                                                                               1500 demobilization and Transition Fund




                                                                                                                                                                     64
